<html>
<title> - BANG FOR THE BORDER SECURITY BUCK: WHAT DO WE GET FOR $33 BILLION?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   BANG FOR THE BORDER SECURITY BUCK: WHAT DO WE GET FOR $33 BILLION?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2018

                               __________

                           Serial No. 115-54

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                    
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-790 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>                    
                    
                    
                    
                    
                    
                    
                    
                    
                    COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           J. Luis Correa, California
Will Hurd, Texas                     Val Butler Demings, Florida
John H. Rutherford, Florida          Nanette Diaz Barragan, California
Don Bacon, Nebraska                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7
The Honorable Lou Barletta, a Representative in Congress From the 
  State of Pennsylvania:
  Prepared Statement.............................................     8

                               WITNESSES
                                Panel I

Ms. Claire M. Grady, Under Secretary for Management, Directorate 
  for Management, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    11
Mr. Ronald D. Vitiello, Acting Deputy Commissioner, U.S. Customs 
  and Border Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................    18
  Joint Prepared Statement.......................................    11
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21

                                Panel II

Mr. Brandon Judd, National President, National Border Patrol 
  Council:
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Mr. Anthony M. Reardon, National President, National Treasury 
  Employees Union:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49

                                Appendix

Questions From Honorable Lou Barletta for Ronald D. Vitiello.....    65

 
   BANG FOR THE BORDER SECURITY BUCK: WHAT DO WE GET FOR $33 BILLION?

                              ----------                              


                        Thursday, March 15, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
(Chairwoman of the subcommittee) presiding.
    Present: Representatives McSally, Hurd, Rutherford, Bacon, 
Vela, Correa, Demings, and Barragan.
    Also present: Representative Jackson Lee.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border Maritime Security will come to order.
    Subcommittee is meeting today to review the critical 
infrastructure, technology, and personnel funding needed by 
U.S. Customs and Border Protection to enhance our Nation's 
border security. I now recognize myself for an opening 
statement.
    All three branches of the Government are now engaged in an 
attempt to resolve an issue created by the unconstitutional 
actions of the previous administration. The Deferred Action for 
Childhood Arrivals or DACA program provides legal status for 
those brought to the United States as minors by Executive 
action. Impending legal action by the States pushed President 
Trump to announce the termination of the program last year with 
a 6-month delay and absent recent court rulings it would have 
officially ended last week.
    For months, many of us in Congress have been working 
diligently on a lawful solution for the DACA population. 
However, any solution reached must ensure that as a Nation of 
laws we will not repeat the mistakes of the past and end up in 
the same place discussing this very same issue about the next 
similar population in 10, 15, or 5 years down the road.
    Border security is a critical pillar of that solution and 
it is a key part of the compromise proposal offered by 
President Trump. As the debate rages on in the media, here in 
Congress, and especially on this subcommittee, it is our 
responsibility to fully examine what it will take both in terms 
of policy changes and dollars and cents to secure our Nation's 
border.
    To be clear, the Federal Government's responsibility is to 
secure our borders and that is independent from any way forward 
on DACA. In addition to being the Chair of this subcommittee, I 
am one of nine Members of Congress that actually represent a 
border district. My constituents have waited too long for 
Washington, DC to provide all the resources, the strategy, and 
the manpower that will be required to secure the border and 
stop the cartel activity trafficking through our communities.
    It is refreshing to have a President who has the will to do 
what it takes to provide real border security. Today, we are 
here to talk about what resources are needed and how they will 
be deployed to get the mission done.
    Late last year, in the context of the DACA-related 
negotiations, we asked U.S. Customs and Border Protection 
leadership to provide Congress with a list of what they needed 
to adequately secure the border. They responded in early 
January by delivering a document entitled ``Critical CBP 
Requirements to Improve Border Security.'' This document 
details major border security investments across four main 
categories: Physical barriers, technology, access, and 
additional staffing.
    In total, this proposal calls for an expenditure of more 
than $33 billion dollars over the next 10 fiscal years. This is 
not an insignificant sum of money for an organization whose 
annual budget is almost $17 billion. This request proposes to 
construct hundreds of miles of new barriers, deploy billions of 
dollars of new technology and hire thousands of new agents and 
officers based on requirements generated from CBP field 
commanders.
    For years, CBP has reiterated the need for the right 
combination of barriers, technology, and personnel. The reason 
is simple: The border is complex, and there isn't a one-size-
fits-all solution. Along the 1,954 miles of border there are 
wide variations in terrain and threats from urban cores like 
San Diego and El Paso to remote rural areas like in my district 
in Arizona.
    CBP has put forth a series of proposals to achieve 
situational awareness and operational control. Most Members of 
Congress say they are committed to securing the border, and if 
that is the case, we have an obligation to carefully and 
thoughtfully consider what CBP has requested to get the job 
done.
    I would encourage Members of the subcommittee to listen to 
the justifications for these expenditures given by career 
professionals, like Deputy Commissioner Vitiello and Agent 
Brandon Judd on the next panel, who have worked the border and 
know first-hand the challenges that we are up against.
    We know that the border is not secure. Gangs and 
trafficking organizations exploit it every day. It is not just 
border communities who are threatened by these bad actors, 
Americans across the country including those being impacted by 
the opioid epidemic are affected by the illicit activities 
traversing our borders.
    We have got a unique opportunity here to change the status 
quo on the border. The proposals offered by CBP start as a 
solid framework. I want to be clear, real border security is 
more than just a border wall system, technology, and personnel. 
It also includes aspects of policy. Ensuring that illicit 
border crossers are promptly removed from the country 
discourages others from illegally crossing in the future and 
sends a message that our Nation's laws will be enforced.
    Unfortunately, there are too many loopholes right now in 
our current system that are used on a daily basis by the 
cartels to thwart the hard work done by the men and women of 
CBP and Immigration and Customs Enforcement. These loopholes 
must also be closed.
    Over the last 6 months, I have collaborated with Chairman 
McCaul, Chairman Goodlatte, and Representative Labrador to 
craft legislation that closes these loopholes and authorizes 
this critical funding for border security into a trust fund to 
ensure the mission is complete and future Congresses can't halt 
the progress.
    Our bill called the Secure America's Future Act includes 
other important provisions to end chain migration, the visa 
lottery, crackdown on sanctuary cities, Kate's Law, and a bill 
I previously introduced to go after cartel scouts who sit on 
hilltops and direct cartel activity often with better equipment 
than our agents. It also provides a pathway forward for DACA 
recipients. We are working to bring our bill to the floor of 
the House for a vote.
    I have called today's hearing because I want to dive in to 
the details of the CBP request on border security and help the 
American people understand what the border security return on 
investment could be, what would be realized if this strategy is 
fully funded.
    Agents and officers of CBP work every single day to secure 
our Nation, often in rugged terrain, dangerous situations and 
in very remote areas far away from the amenities of modern 
life. We owe it to them to give them the tools and the 
resources that support their ability to gain and maintain 
situational awareness and operational control of our border.
    I look forward to the testimony of our witnesses today.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                             March 15, 2018
    All three branches of our Government are now engaged in an attempt 
to resolve an issue created by the unconstitutional actions of the 
previous administration.
    The Deferred Action for Childhood Arrivals (DACA) program, provides 
legal status for those brought to the United States as minors by 
Executive action. President Trump announced its termination last year 
with a 6-month delay, and, absent recent court rulings, it would have 
officially ended last week.
    For months, many of us in Congress have been working diligently on 
a lawful solution for the DACA population. However, any solution 
reached, must ensure that as a Nation of laws, we will not repeat the 
mistakes of the past and end up in the same place discussing this very 
same issue about another similar population 5, 10, or 15 years down the 
road.
    Border security is a critical pillar of that solution, and is a key 
part of the compromise proposal offered by President Trump.
    As the debate rages on in the media, here in Congress, and 
especially on this subcommittee, it is our responsibility to fully 
examine what it will take, both in terms of policy changes, and dollars 
and cents, to secure our Nation's borders.
    To be clear, the Federal Government's responsibility to secure our 
borders is independent from a DACA way forward.
    In addition to being the Chair of this subcommittee, I am one of 
nine Members of Congress to represent a border district. My 
constituents have waited too long for Washington, DC to provide the 
resources, strategy, manpower, and will required to secure the border 
and stop the cartel activity trafficking through our communities.
    It is refreshing to have a President who has the will to do what it 
takes to provide real border security. Today we are here to talk about 
what resources are needed and how will they be deployed to get the 
mission done.
    Late last year, in the context of DACA-related negotiations, we 
asked U.S. Customs and Border Protection leadership to provide Congress 
with a list of what they needed to adequately secure the border. They 
responded in early January by delivering a document entitled, 
``Critical CBP Requirements to Improve Border Security.''
    This document details major border security investments across four 
main categories: Physical barriers, technology, access, and additional 
staffing.
    In total, this proposal calls for an expenditure of more than $33 
billion dollars over the next 10 fiscal years. This is not an 
insignificant sum of money for an organization whose annual budget is 
almost $17 billion dollars.
    This request proposes to construct hundreds of miles of new 
barriers, deploy billions of dollars of new technology, and hire 
thousands of new agents and officers based on requirements generated 
from CBP field commanders.
    For years, CBP has reiterated the need for the right combination of 
barriers, technology, and personnel. The reason is simple, the border 
is complex and there is no ``one size fits all'' solution. Along all 
1,954 miles of border there are wide variations in terrain and threats 
from urban cores like San Diego and El Paso, to remote rural areas like 
my district in Arizona.
    CBP has put forth a serious proposal to achieve situational 
awareness and operational control. Most Members of Congress say that 
they are committed to securing the border, and if that is the case, we 
have an obligation to carefully and thoughtfully consider what CBP has 
requested to get the job done.
    I would encourage the Members of the subcommittee to listen to the 
justifications for these expenditures given by career professionals, 
like Deputy Commissioner Vitiello and Agent Brandon Judd, who have 
worked the border and know first-hand the challenges we are up against.
    We know that the border is not secure--gangs and trafficking 
organizations exploit it every day. It is not just border communities 
that are threatened by these bad actors, Americans across the country 
are affected by the illicit activity traversing our borders.
    We have a unique opportunity to change the status quo on the 
border. The proposal offered by CBP is a solid framework.
    I want to be clear, real border security is more than just a border 
wall system, technology, and personnel. It also includes aspects of our 
immigration policy.
    Ensuring that illicit border-crossers are promptly removed from the 
country discourages others from illegally crossing in the future, and 
sends the message that our Nation's laws will be enforced.
    Unfortunately, there are too many loopholes in our current 
immigration system that are used on a daily basis to thwart the hard 
work done by the men and women of CBP and Immigration and Customs 
Enforcement.
    Those loopholes must also be closed.
    I worked over the last 6 months with Chairmen McCaul, Goodlatte, 
and Representative Labrador to craft legislation that closes these 
loopholes and authorizes this critical funding for border security in a 
trust fund, to ensure the mission is complete and future Congresses 
can't halt the progress.
    Our bill, called the Secure America's Future Act, includes other 
important provisions of ending chain migration and the visa lottery, 
cracking down on sanctuary cities, Kate's Law, and a bill I previously 
introduced to go after cartel scouts who sit on hilltops and direct 
cartel activity, often with better equipment than our agents.
    It also provides a path forward for DACA recipients. We are working 
to bring our bill to the floor of the House for a vote.
    I have called today's hearing because I want to dive deep into the 
details of the CBP request on border security and help the American 
people understand what border security return on investment could be 
realized if this strategy is fully funded.
    Agents and officers of U.S. Customs and Border Protection work 
every single day to secure our Nation, often in rugged terrain, 
dangerous situations, and in very remote areas far away from the 
amenities of modern life.
    We owe it to them to give them the tools and resources that support 
their ability to gain and maintain situational awareness and 
operational control of the border.

    Ms. McSally. I now recognize the Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Vela, for a 
statement.
    Mr. Vela. Thank you, Chairwoman McSally.
    Thank you to our witnesses who have joined us this 
afternoon.
    Today, we examine the Department's border security 
improvement plan and discuss other policy changes proposed by 
DHS to deter illegal migration. The intention for this plan was 
to provide Congress with a substantive analysis of alternatives 
and life-cycle costs for needed border security investments 
over the next decade. Unfortunately, this is not what we 
received in January.
    The way I see it, this border security improvement plan 
illustrates how the Trump administration has politicized the 
way we identify border security gaps. Of the $33 billion in 
investments identified in this plan, approximately 55 percent 
of these taxpayer dollars are meant to build a big, beautiful 
border wall. That seems unusually disproportionate given what 
we have heard in testimony from the Coast Guard and CBP's own 
front-line personnel over the course of this Congress.
    For example, there is no mention of funding to fix CBP's 
Office of Field Operations staffing shortage, a longstanding 
and well-known problem that requires CBP to hire more than 
3,500 additional officers.
    Under this plan, it would seem that CBP Officers across 
this country including those from my district and the 
Chairwoman's will continue to 16-hour shifts, be temporarily 
reassigned to different field offices, or do both in order to 
make up for the lack of officers.
    These CBP staffing issues are critical to border security, 
yet the administration continues to ignore these problems. The 
President was in San Diego this past Tuesday to view the border 
wall prototypes, but he chose not to visit San Isidro or Otay 
Mesa ports of entry to get a sense of the volume of cargo and 
people our officers have to vet and screen daily. Rather, the 
administration is seeking to nearly double the number of miles 
of barriers along the U.S.-Mexico border between ports of 
entry.
    Under this plan, my district in the Rio Grande Valley in 
Texas would see a significant amount of construction including 
in environmentally sensitive locations like the Santa Ana 
National Wildlife Refuge.
    My staff has made repeated request for the data showing the 
number of apprehensions and risk level in this location and we 
are still awaiting to be briefed by CBP on what has made the 
wildlife refuge its first priority for building a levee wall.
    Despite the lessons from 10 years ago, this plan does not 
provide estimates of the full cost, time, and resources that 
will be required to take land from private landowners to build 
this border wall. The $18 billion estimated by the Department 
will most likely skyrocket over time just as costs did during 
the previous border fence construction due to eminent domain.
    Even more surprising is the lack of metrics. In a series of 
reports released last year, GAO found that while CBP collects a 
lot of data, they have no metrics in place to accurately assess 
the return on our previous investments in technology and border 
barriers. CBP may not have these metrics in place until 
September 2019, and yet here we are actively discussing the $33 
billion plan without a sense of which tools have been most 
useful in securing our borders.
    However, a report issued by DHS in September 2017 found 
that our southern land border is more difficult to cross today 
than ever before. This report also found that we are seeing the 
lowest number of illegal entries in the last 40 years.
    Given these findings, DHS's border security improvement 
plan seems like a retroactive justification for pursuing a 
campaign promise instead of a plan based on a strategy to 
address known needs at our ports of entry or along our Northern 
Border or our coast lines.
    Last, I wish to acknowledge Mr. Tony Reardon and Mr. 
Brandon Judd for joining us second time in a row to testify. 
Based on our hearing this past January, I introduced the Border 
and Port Security Act to start addressing the dire staffing 
shortages within CBP's Office of Field Operations.
    Significant changes to CBP's hiring process and retention 
policies are needed, but in the mean time we can at least begin 
by authorizing CBP to meet the requirements identified in its 
workload staffing models.
    Again, I thank all of our witnesses for joining us this 
afternoon and I am eager to hear your views on the 
administration's proposed approach to border security 
improvements. With that, I yield back the balance of my time.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                             March 15, 2018
    Today, we examine the Department's Border Security Improvement Plan 
and discuss other policy changes proposed by DHS to deter illegal 
migration.
    The intention for this plan was to provide Congress with a 
substantive analysis of alternatives and life-cycle costs for needed 
border security investments over the next decade.
    Unfortunately, that is not what we received in January.
    The way I see it, this Border Security Improvement Plan illustrates 
how the Trump administration has politicized the way we identify border 
security gaps.
    Of the $33 billion in investments identified in this plan, 
approximately 55 percent of these taxpayer dollars are meant to build a 
``big, beautiful'' border wall.
    That seems unusually disproportionate given what we have heard in 
testimony from the Coast Guard and CBP's own front-line personnel over 
the course of this Congress.
    For example, there is no mention of funding to fix CBP's Office of 
Field Operations' staffing shortage--a long-standing and well-known 
problem that requires CBP to hire more than 3,500 additional officers.
    Under this plan, it would seem that CBP Officers across the 
country, including those from my district and the Chairwoman's, will 
continue to work l6-hour shifts, be temporarily reassigned to different 
field offices, or do both in order to make up for the lack of officers.
    These CBP staffing issues are critical to border security, yet the 
Trump administration continues to ignore these problems.
    The President was in San Diego this past Tuesday to view the border 
wall prototypes, but he chose not to visit San Ysidro or Otay Mesa 
ports of entry to get a sense of the volume of cargo and people our 
officers have to vet and screen daily.
    Rather, the administration is seeking to nearly double the number 
of miles of barriers along the U.S-Mexico border between ports of 
entry.
    Under this plan, my district in the Rio Grande Valley in Texas 
would see a significant amount of construction, including in 
environmentally-sensitive locations like the Santa Ana National 
Wildlife Refuge.
    My staff has made repeated requests for the data showing the number 
of apprehensions and risk-level in this location, and we are still 
waiting to be briefed by CBP on what has made the wildlife refuge its 
first priority for building a levee wall.
    Despite the lessons from 10 years ago, this plan does not provide 
estimates of the full cost, time, and resources that will be required 
to take land from private landowners to build President Trump's border 
wall.
    The $18 billion estimated by the Department will most likely 
skyrocket over time, just as costs did during previous border fence 
construction due to eminent domain.
    Even more surprising is the lack of metrics.
    In a series of reports released last year, GAO found that while CBP 
collects a lot of data, they have no metrics in place to accurately 
assess the return on our previous investments in technology and border 
barriers.
    CBP may not have these metrics in place until September 2019.
    And yet, here we are--actively discussing this $33 billion plan 
without a sense of which tools have been most useful in securing our 
borders.
    However, a report issued by DHS in September 2017 found that our 
southern land border is more difficult to cross today than ever before.
    This report also found that we are seeing the lowest number of 
illegal entries in the past 40 years.
    Given these findings, DHS's Border Security Improvement Plan seems 
like a retroactive justification for pursuing a Trump campaign promise 
instead of a plan based on a strategy to address known needs at our 
ports of entry or along our Northern Border or our coastlines.
    Lastly, I wish to acknowledge Mr. Tony Reardon and Mr. Brandon Judd 
for joining us a second time in a row to testify.
    Based on our hearing this past January, I introduced the Border and 
Port Security Act to start addressing the dire staffing shortages 
within CBP's Office of Field Operations.
    Significant changes to CBP's hiring process and retention policies 
are needed, but in the mean time, we can at least begin by authorizing 
CBP to meet the requirements identified in its workload staffing 
models.
    Again, I thank all of our witnesses for joining us this afternoon, 
and I am eager to hear your views on the Trump administration's 
proposed approach to border security improvements.

    Ms. McSally. Gentleman yields back.
    Other Members of the committee are reminded, opening 
statements may be submitted for the record.
    [The statements of Ranking Member Thompson and Honorable 
Barletta follow:]
             Statement of Ranking Member Bennie G. Thompson
                             April 4, 2017
    This afternoon's discussion is timely given President Trump's visit 
to San Diego earlier this week to view the border wall prototypes.
    In January, the Deparment of Homeland Security shared with Congress 
its $33 billion border security improvement plan, of which $18 billion 
would be used to fulfill President Trump's campaign promise of building 
a ``wall'' along the Southern Border.
    As I have stated before, spending billions on a boondoggle border 
wall to satisfy a slogan used throughout the 2016 Presidential campaign 
season is a terrible use of American taxpayer money and bad border 
policy.
    However, through a series of tweets, televised meetings with his 
Cabinet and Members of Congress, and even a YouTube video, the 
President and members of the administration, including the Secretary of 
Homeland Security, have repeatedly made their case over the past 
several weeks for this one solution.
    When the President widely shares via Twitter findings from the 
Center for Immigration Studies, an organization that is openly anti-
immigrant, I am not confident that his preference for a border wall is 
based on data or strategic interest.
    All of us here today know full well that cartels go around, over, 
under, or through these walls, or smuggle narcotics in cargo shipments 
moving through our ports of entry.
    Further, at a time when the Department's own data show that illegal 
entries into the United States through the southwest land border are at 
the lowest levels they have been in the past 40 years, it makes little 
sense to rely so heavily on this plan to build walls for the next 10 
years.
    Border security challenges are more nuanced than simply building a 
wall, but more than half of the funding needed to carry out the DHS 
Border Security Improvement Plan would be dedicated to just that.
    As Ranking Member Vela stated, the Government Accountability Office 
has concluded that U.S. Customs and Border Protection has absolutely no 
metrics to show how a wall or even land-based technology contribute to 
border security in general.
    Without knowing the return on these investments, how can we know 
which tools are the most effective and cost-efficient? How does this 
plan we are discussing today ensure we are making the best, risk-based 
decisions?
    Given the price tag of this plan, I find it concerning that there 
is no substantive analysis of life-cycle costs nor a discussion of 
resources and acquisitions management.
    If DHS and CBP are not taking into account the lessons learned from 
previous mistakes, such as the more than $1 billion SBInet endeavor, 
DHS, with the help of the Republican-led Congress, is bound to repeat 
them.
    The administration's singular focus on building border walls is 
crowding out discussions on other, well-known issues that affect our 
border security.
    For example, both the Border Patrol and the Office of Field 
Operations are losing trained, experienced agents and officers at a 
faster rate than CBP is able to replace them.
    I share Ranking Member Vela's frustration that the Trump 
administration continues to overlook critical staffing problems within 
CBP, in particular the shortages at our ports of entry. Requiring CBP 
Officers to work back-to-back shifts and take temporary duty 
assignments to compensate for the lack of officers is a precarious 
model to operate on.
    I thank Congressman Vela for introducing H.R. 4940, the Border and 
Port Security Act, last month to begin fixing this problem, and I am 
glad to be a co-sponsor.
    Last, I am concerned by some of the policy proposals DHS is 
considering--and in some cases already using--to deter illegal 
migration.
    Last month, all 12 Democrats on this committee and 63 other 
Democratic colleagues sent a letter to Secretary Nielsen asking her to 
halt the practice of separating migrant parents from their children 
when they are apprehended at the border or in immigration detention in 
cases that do not warrant it.
    The practice is inhumane, excessively punitive, and can 
deliberatively interfere with their legal right to request asylum.
    I reiterate my opposition to this practice, and I caution the 
Department from pursuing other such policies that do not honor our 
values as a Nation of immigrants.
                                 ______
                                 
                  Statement of Honorable Lou Barletta
    Thank you all for being here today to discuss the importance of 
securing our borders, and for your service to this country.
    I am always told we must have compassion for the person who breaks 
the law and comes to this country illegally, but rarely does someone 
speak up for the victims of this crime. I am pleased we finally have a 
partner in the White House whose main priority is the American people.
    There are many victims of illegal immigration. American families 
suffer when resources are diverted to illegal immigrants. Americans who 
need help the most lose jobs and the prospects of a pay raise. 
Hospitals and schools are pushed to a breaking point, as over-crowding 
moves public resources from tax-paying Americans, to non-taxpaying 
illegal immigrants.
    I have sat at the tables of Pennsylvanians who have lost loved ones 
to the violent acts of illegal aliens, and it is those people for whom 
I have compassion.
    We as a Congress have failed the people by not enforcing the laws 
of our land and refusing to put the safety and well-being of the 
American people first.
    I was the mayor of a city that had an illegal immigration problem. 
Our population grew by 50 percent but our tax revenue stayed the same. 
I do not need an expert to describe to me the issue, I've lived it.
    My city of Hazleton was overrun by illegal immigrants, and with 
them came gangs, drugs, identity theft, fraud, and other crimes.
    In Philadelphia, multiple child molesters have been released back 
onto our streets because of the city's sanctuary policy. According to 
Acting ICE Director Tom Homan, since 2014, nearly 10,000 criminal 
aliens that have been released by sanctuary policies have committed 
another crime.
    Deadly narcotics like fentanyl continue to flood into the country. 
In Pennsylvania alone, drug overdose deaths rose by approximately 37 
percent in 2016 according to the Drug Enforcement Administration.
    It is time to secure our borders, enforce our Federal laws, and put 
America first.

    Ms. McSally. We are pleased to have two distinguished 
panels of witnesses before us today to discuss this important 
topic. We will first hear from Ms. Claire Grady, who is the 
under secretary for management at Department of Homeland 
Security. In this role, she is third in command of the 
Department and oversees a budget of $60 billion and a work 
force of 240,000 dedicated Homeland Security professionals.
    Mr. Ron Vitiello is acting deputy commissioner or U.S. 
Customs and Border Protection. Previously, he served as the 
chief of the U.S. Border Patrol. As its chief operating 
officer, he was responsible for the daily operations of the 
U.S. Border Patrol, assisting in planning and directing Nation-
wide enforcement and administrative operations.
    Ms. Rebecca Gambler is a director in the U.S. Government 
Accountability Office's Homeland Security and Justice team 
where she leads GAO's work on border security, immigration, and 
the Department of Homeland Security's Management and 
Transformation.
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Under Secretary Grady for 5 
minutes to testify.

 STATEMENT OF CLAIRE M. GRADY, UNDER SECRETARY FOR MANAGEMENT, 
    DIRECTORATE FOR MANAGEMENT, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Grady. Thank you, Chairwoman McSally, Ranking Member 
Vela, and distinguished Members of the subcommittee for 
inviting me to testify today. It is an honor to appear before 
you and to engage in this important discussion.
    As DHS's under secretary for management, I am responsible 
for the lines of business that enable the Department's mission 
with a focus on integrating and unifying the third-largest 
Department in the Federal Government. I oversee all aspects of 
the Department's management programs in support of Homeland 
Security operations including financial management, human 
capital, information technology, acquisition, security, 
logistics, and asset management.
    As the chief acquisition officer for DHS, I am ultimately 
responsible for the Department's acquisition and procurement 
programs. Through the Office of the Chief Procurement Officer, 
the Program Accountability and Risk Management Office and other 
DHS functional leads, I provide policy oversight and management 
of these programs.
    Initially, the Department was comprised of disparate 
components with different approaches, methods, and policies 
regarding acquisition and management activities. The absence of 
a Departmental acquisition oversight structure, a strong 
requirements development process, and centralized resource 
allocation created challenges. We lack the unified Departmental 
approach for the administration of the Department's management 
and acquisition effort, efforts that are critical to the 
security of our Nation.
    During the past several years, DHS has made significant 
progress to strengthen and improve its requirements, budgeting, 
and acquisition processes. DHS has focused on 
institutionalizing robust oversight and governance structures 
and maturing the acquisition process to build upon solid 
requirements analysis, ensuring operators are engaged in 
determining capability gaps and mission needs.
    The planned investments for border security will benefit 
from this maturation of processes and development of expertise, 
ensuring we deliver the right capability on time and within 
budget.
    The border wall and associated technology are being managed 
in accordance with Directives 107-1 Joint Requirements and 102-
1 Acquisition Management, by delivering the wall system and 
priority--pardon me--prioritized segments, CBP has established 
a sound acquisition strategy that mitigates risk and delivers 
capability that is sequenced based on operators' needs.
    In concert with CBP, we have instituted an Executive 
steering committee in which leadership and senior functional 
experts including the chief procurement officer and the chief 
financial officer participate with a focus on effectively and 
efficiently delivering this much-needed capability.
    For all large-dollar investments, I personally review and 
approve required program documentation and share and make 
decisions on readiness to proceed at Acquisition Review Boards. 
We are leveraging the full capability of the Department to 
position this critical effort for success.
    In addition to infrastructure and technology, front-line 
and support personnel are critical to border security. We must 
have sufficiently trained, experienced, and equipped Border 
Patrol Agents to perform the important and often dangerous work 
of securing our borders.
    As the under secretary for management, I am committed to 
providing the necessary oversight and resources to ensure CBP 
can and will successfully perform its mission. As you may know, 
this Executive Order on Border Security and Immigration 
Enforcement mandated the hiring of 5,000 additional Border 
Patrol Agents. To implement this, we continue to explore all 
avenues to meet current and future human capital needs with 
high-quality ethical individuals who are committed to the rule 
of law and protecting our Nation.
    We continually analyze and refine recruitment and hiring 
practices to secure adequate staffing for critical front-line 
and support personnel. Our focus is on attracting more 
applicants who are suited to the unique demands of CBP's 
mission, expediting the pre-employment time line and reducing 
the attrition rate of the existing work force.
    While there is always much more work to do, the Department 
has made significant strides to improve management including 
acquisition planning and execution. With continued and frequent 
engagement between CBP leadership and the Department, DHS will 
deliver maximum value for taxpayer dollars invested in border 
security.
    This open communication and the assistance from the 
Department coupled with a measured approval by segment strategy 
ensures delivery of operational capability that will improve 
the security of our homeland. We are committed to employing the 
combination of infrastructure, technology, and Border Patrol 
Agents that most effectively and economically secures the 
borders, increasing our National security and promoting 
American economic interests.
    Chairman McSally, Ranking Member Vela, and distinguished 
Members of the subcommittee, thank you for this opportunity and 
I look forward to your questions.
    [The joint prepared statement of Ms. Grady and Mr. Vitiello 
follows:]
   Joint Prepared Statement of Claire M. Grady and Ronald D. Vitiello
                             March 15, 2018
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, it is an honor to appear before you today on 
behalf of the Department of Homeland Security (DHS) and U.S. Customs 
and Border Protection (CBP) to discuss how the right mix of technology, 
infrastructure, and personnel enable DHS to achieve strategic and 
operational border security objectives.
    Within DHS, CBP is responsible for securing approximately 7,000 
miles of land border, 95,000 miles of shoreline, 328 ports of entry 
(POE), and the associated air and maritime space from the illegal entry 
of people and contraband into the United States. The border environment 
in which CBP works is dynamic and requires continual adaptation to 
respond to emerging threats and changing conditions. We appreciate the 
partnership and support we have received from this subcommittee and 
your commitment to the security of the American people.
    Through a series of Executive Actions, President Trump has taken 
steps to enhance border security, promote public safety, minimize the 
threat of terrorist attacks by foreign nationals, and protect American 
workers from unfair foreign competition. Last January, the President 
signed the Executive Order entitled Border Security and Immigration 
Enforcement Improvements (E.O. 13767). E.O. 13767 directs Executive 
departments and agencies to deploy all lawful means to secure the 
Nation's Southern Border, prevent further illegal immigration to the 
United States, and repatriate aliens with final orders of removal 
swiftly, consistently, and humanely. E.O. 13767 also establishes the 
foundation for securing our Southern Border by directing the provision 
of necessary tools, resources, and policy goals for DHS's dedicated men 
and women, who are responsible for preventing illegal immigration, drug 
smuggling, human trafficking, and acts of terrorism, to fulfill their 
critical mission.
    Our testimony today discusses DHS's on-going efforts through the 
right mix of infrastructure, personnel, and advanced technology--to 
enhance our deterrence, detection, and interdiction of illegal cross-
border activity, at and between the POEs. However, legislative changes 
are needed to address some of the most complex challenges facing our 
Nation. DHS looks forward to working with Congress to ensure safe and 
lawful admissions, defend the safety and security of our country, and 
protect American workers and taxpayers.
    For example, the administration proposes amending current law to 
ensure the expeditious return of Unaccompanied Alien Children (UACs) 
and family units. The administration also proposes correcting the 
systemic deficiencies that created the asylum backlog, as well as 
proposes providing additional resources to reduce the immigration court 
backlog and ensure the swift return of illegal border crossers. 
Further, the administration proposes expanding the criteria that render 
aliens inadmissible and ensure that such aliens are maintained in 
continuous custody until removal. The administration also proposes 
increasing employment verification and other protections for U.S. 
workers.
    Moreover, the administration seeks to expand the grounds of 
removability and the categories of aliens subject to expedited removal 
and by ensuring that only aliens with meritorious valid claims of 
persecution can circumvent expedited removal, and proposes increasing 
penalties for repeat illegal border crossers and those with prior 
deportations. The administration also proposes strengthening the 
removal processes for those who overstay or otherwise violate the terms 
of their visas, and implementing measures to prevent future visa 
overstays which may account for a growing percentage of illegal 
immigration. There are nearly 1 million aliens with final orders of 
removal across the country--meaning these removable aliens were 
afforded due process of law, had their day in court, and were 
ultimately ordered removed by a judge--yet they remain in our Nation 
and U.S. Immigration and Customs Enforcement (ICE) only has 6,000 
Deportation Officers to arrest and remove them. The administration 
looks to strengthen law enforcement by hiring 10,000 more ICE officers 
and agents, and supports the request from the Department of Justice to 
hire 300 more Federal prosecutors.
    We urge Congress to address the challenge of so-called 
``sanctuary'' jurisdictions. Hundreds of State and local jurisdictions 
across the country do not honor ICE requests to hold criminal aliens 
who are already in State and local custody. Instead, they release them 
back into their communities, where they are allowed to commit more 
crimes. In addition to public safety concerns related to ``sanctuary'' 
policies, they pose a greater risk of harm to ICE officers, who must 
locate and arrest these criminals in public places. This increases the 
likelihood that the criminal aliens can resist arrest or flee. Rather 
than enhancing public safety, sanctuary jurisdictions undermine it by 
creating a safe haven for criminal aliens. States and localities that 
refuse to cooperate with Federal authorities should be ineligible for 
funding from certain grants and cooperative agreements. Authorizing and 
incentivizing States and localities to enforce immigration laws would 
further help ICE with its mission and make all communities safer.
                      investing in border security
    CBP's proposed investments leverage the Capability Gap Analysis 
Process (CGAP), an annual, full-spectrum requirements analysis process. 
In use since 2014, CGAP creates a consistent and repeatable, field-
driven approach to conducting mission analysis and planning aimed at 
identifying capabilities gaps across the complex environments that U.S. 
Border Patrol (USBP) agents work in every day. Capability gaps are 
captured directly from the field using this process, and are explored 
through qualitative and quantitative analysis and other evidence to 
provide information to decision makers about the border security 
mission space across the Northern, Southern, and Costal borders of the 
United States. This methodology leads to informed investments that 
achieve the greatest possible operational impact. As the threats along 
the borders change, USBP will update this analysis as needed to 
maximize the impact of future investments.
    The CGAP is used by USBP to identify needs related to 12 master 
capabilities: Communications; doctrine and policy; domain awareness; 
human capital management; impedance and denial (I&D); information 
management; intelligence and counter intelligence; mission readiness; 
planning and analysis; security and partnerships; access and mobility; 
and command and control. While CGAP identifies needs across all 12 
master capabilities, four capabilities--I&D, domain awareness, access 
and mobility, and mission readiness--are consistently prioritized by 
field commanders as the most important. These identified needs are then 
subject to appropriate review and validation through the DHS 
requirements processes.
                             infrastructure
    Tactical infrastructure, including physical barriers and 
complementary capabilities, has long been a critical component of CBP's 
multi-layered and risk-based approach to securing our Southern Border. 
Tactical infrastructure also supports EO 13767 Border Security and 
Immigration Enforcement Improvements and CBP's operational 
requirements, including the high-priority border wall system.
Between the Ports of Entry
    The land along the border between the United States and Mexico is 
extremely diverse, consisting of desert landscape, mountainous terrain, 
and urban areas. Today we have several types of barriers, including 
steel bollard and levee wall along nearly one-third, or 654 miles, of 
the Southern Border.
    I&D is among the four capabilities that field commanders 
consistently prioritize during the CGAP process. I&D is the ability to 
slow and/or stop the use of terrain for illicit cross-border activity. 
This is achieved primarily through the use of man-made infrastructure 
such as a physical wall, and the complementary deployment of personnel, 
roads, and technology. It is undeniable that border barriers have 
enhanced--and will continue to enhance--CBP's operational capabilities 
by creating an enduring capability that impedes illegal cross-border 
activity and facilitates the deterrence and prevention of illegal 
entries. I&D investments are critical in protecting border areas with 
short vanishing times, where illicit crossers can quickly evade law 
enforcement by ``vanishing'' into border communities. Investments in 
I&D, and particularly in a border wall system, will help CBP obtain 
operational control of the border and prevent illegal border crossings.
    Following extensive risk-based analysis of operational needs along 
the Southwest Border using the CGAP process, CBP identified its top 17 
priority investments that will assist the agency in stopping the 
illicit flow of people and goods into the country between POEs. The 
investments will result in the construction of 450 miles of new or 
replacement primary pedestrian barrier and 272 miles of new or 
replacement secondary barrier, for a total of 722 miles of planned 
construction. CBP estimates that it will cost approximately $18 billion 
to build the top 17 priority groups.
    CBP is seeking to build on the successes of, and lessons learned 
from, the construction and operation of existing barriers to deploy a 
system that addresses dynamic cross-border threats. CBP is working with 
industry and partnering with the U.S. Army Corps of Engineers to 
incorporate additional alternative barrier design features and other 
innovative solutions into our border barrier systems. Border barrier 
systems are comprehensive solutions that include a concentrated 
combination of various types of infrastructure such as walls, all-
weather roads, lighting, sensors, enforcement cameras, and other 
related technology. Deployments of additional infrastructure will be 
made using a multi-phased approach that meets USBP's operational 
requirements, and which safeguards National security and public safety. 
These deployments will be the results of thorough analysis of threat 
and mission effectiveness and follow disciplined acquisition processes 
overseen by DHS.
    Throughout the planning, design, and construction process, CBP will 
complete project, budget, real estate, and environmental planning to 
ensure appropriate resource stewardship. CBP will leverage expertise in 
Federal acquisition to maximize transparency and accountability and to 
ensure the most effective and efficient solutions are deployed to meet 
requirements, in accordance with the established DHS acquisition 
lifecycle framework and acquisition review board oversight.
    CBP is committed to ensuring that all stakeholder communities, 
including Federal partners, State, local, and Tribal officials, and 
impacted communities, are kept informed and engaged throughout this 
process.
At the Ports of Entry
    CBP supports a vast and diverse real property portfolio, consisting 
of more than 4,300 owned and leased buildings, over 28 million square 
feet of facility space, and approximately 4,600 acres of land 
throughout the United States. CBP continues to construct and modernize 
Land Ports of Entry along the Northern and Southern Borders, and to 
complete additional enhancement and expansion projects within the 
Office of Field Operations portfolio. Constructing and improving CBP's 
physical infrastructure is essential to keeping facilities 
operationally viable for front-line and mission support functions.
                               technology
    Technology enhances CBP's operational capabilities by increasing 
the ability of the men and women of CBP to: Detect and identify 
individuals illegally crossing the border; detect dangerous goods and 
materials concealed in cargo and vehicles; and detect and interdict 
illegal activity in the air and maritime domains. For CBP, the use of 
technology in the border environment is an invaluable force multiplier 
that increases situational awareness. Technology enhances the ability 
of CBP to detect illegal activity quickly, with less risk to the safety 
of our front-line personnel.
At the Ports of Entry
    Smugglers use a wide variety of tactics and techniques to traffic 
concealed drugs and other contraband through POEs. CBP incorporates 
advanced detection equipment and technology, including the use of Non-
Intrusive Inspection (NII) equipment and radiation detection 
technologies, to maintain robust cargo, commercial conveyance, and 
vehicle inspection regimes at our POEs.
    NII technology is a critical element in CBP's ability to detect 
contraband, and materials that could pose nuclear and radiological 
threats. CBP currently has 304 large-scale NII systems and over 4,500 
small-scale systems deployed to, and between, POEs. These systems 
enable CBP officers to examine cargo conveyances such as sea 
containers, commercial trucks, and rail cars, as well as privately-
owned vehicles, for the presence of contraband without physically 
opening or unloading them. This allows CBP to work smarter and faster 
in detecting contraband and other dangerous materials. CBP officers 
also utilize NII, as well as spectroscopic and chemical testing 
equipment and narcotics detection canines, to detect and presumptively 
identify illicit drugs, including illicit opioids, at international 
mail and express consignment carrier facilities. As of January 31, 
2018, CBP has deployed NII systems to conduct more than 83 million 
examinations, resulting in more than 18,500 narcotics seizures, with a 
total weight of more than 4.23 million pounds, and more than $79.292 
million in currency seizures.
    Scanning all arriving conveyances and containers with radiation 
detection equipment prior to release from the POE is an integral part 
of CBP's comprehensive strategy to combat nuclear and radiological 
terrorism. In partnership with the Countering Weapons of Mass 
Destruction Office, CBP has deployed nuclear and radiological detection 
equipment, including 1,280 Radiation Portal Monitors (RPM), 3,319 
Radiation Isotope Identification Devices, and 35,294 Personal Radiation 
Detectors to all 328 POEs Nation-wide. Utilizing RPMs, CBP is able to 
scan 100 percent of all mail and express consignment mail and parcels; 
100 percent of all truck cargo; 100 percent of personally-owned 
vehicles arriving from Canada and Mexico; and nearly 100 percent of all 
arriving sea-borne containerized cargo for the presence of radiological 
or nuclear materials. Between 2002 when the RPM program began, through 
January 31, 2018, CBP has scanned more than 1.41 billion conveyances 
for radiological contraband, resulting in more than 6.1 million alarms 
in primary and secondary operations, all of which have been 
successfully adjudicated at the proper level.
    In conjunction with CBP's many other initiatives, advancements in 
cargo and conveyance screening technology provide CBP with a 
significant capacity to detect dangerous materials and other 
contraband, and continue to be a cornerstone of CBP's multi-layered 
security strategy.
Technology Investments Between the Ports of Entry
    Thanks to the support of Congress, CBP continues to deploy proven, 
effective technology to strengthen border security operations between 
the POEs, in the land, air, and maritime environments. These 
investments increase CBP's ability to detect illegal activity along the 
border, increase our operational capabilities, and improve the safety 
of front-line law enforcement personnel.
Surveillance Capabilities
    Integrated Fixed Tower (IFT) systems are one of the technologies 
deployed along the Southwest Border in Arizona. IFTs provide long-
range, persistent surveillance. An IFT system automatically detects 
items of interest with radar, identifies and classifies them with day 
and night cameras, and tracks them at the Command and Control Center 
through the integration of data, video, and geospatial location input.
    Remote Video Surveillance Systems (RVSS) are another technology 
used by USBP in select areas along the Northern and Southern Borders. 
These systems provide short-, medium-, and long-range, persistent 
surveillance from towers or other elevated structures. Existing RVSS 
are being upgraded with newer cameras, communication backhaul, command-
and-control programs, and additional towers.
    In some areas along both the Northern and Southern Borders, USBP 
uses Unattended Ground Sensors (UGS), to provide focused, short-range, 
persistent surveillance. UGS are remotely monitored surveillance 
systems that detect, identify, and track activity and subjects in areas 
not easy to access or monitor with other technology. These sensors are 
hand-installed, fixed but relocatable, easy to conceal, and adaptable 
to numerous operational environments. Detection capabilities include 
seismic, magnetic, acoustic, infrared, radar, microwave, photoelectric, 
contact closure and various others. Imaging UGS (I-UGS) provide 
photograph or video verification of detections and allow advanced image 
analytics.
    Fixed systems provide persistent surveillance coverage to 
efficiently detect unauthorized border crossings. Once detection is 
confirmed, USBP can quickly deploy the appropriate personnel and 
resources to interdict. Without fixed-system technology such as IFT, 
RVSS, and UGS, the USBP's ability to detect, identify, classify, and 
track illicit activity would be significantly limited.
Mobile and Relocatable Surveillance Capabilities
    Working in conjunction with fixed surveillance assets, USBP also 
uses mobile and relocatable systems to address areas where rugged 
terrain and dense ground cover may limit the effectiveness and coverage 
of fixed systems. Mobile and relocatable technology assets provide USBP 
with the flexibility to adapt to changing border conditions and 
threats.
    Mobile Surveillance Capability systems provide long-range, mobile 
surveillance. They include radar and camera sensors mounted on USBP 
vehicles. Mobile Vehicle Surveillance Systems are short- and medium-
range, mobile surveillance equipment. They consist of camera sensors on 
telescoping masts mounted on USBP vehicles. USBP agents deploy with 
these systems, which detect, track, identify, and classify items of 
interest using the video feed.
    Another system is the Agent Portable Surveillance System. Mounted 
on a tripod, it provides medium-range, mobile surveillance and can be 
transported by two or three USBP agents. Two agents remain on-site to 
operate the system, which automatically detects and tracks items of 
interest and provides the agent/operator with data and video of 
selected items of interest.
    CBP's Tactical Aerostats and Re-locatable Towers program, 
originally part of the Department of Defense (DOD) re-use program, uses 
a mix of aerostats, towers, cameras, and radar to provide USBP with 
increased situational awareness over a wide area. This capability has 
proven to be a vital asset in increasing USBP's ability to detect, 
identify, classify, and track activity along the borders.
    The Cross-Border Tunnel Threat program strengthens border security 
effectiveness between POEs by diminishing the ability of Transnational 
Criminal Organizations to gain access into the United States through 
cross-border tunnels and the illicit use of underground municipal 
infrastructure. This system helps CBP predict potential tunnel 
locations; detect the presence of suspected tunnels and tunneling 
activities as well as project the trajectory of a discovered tunnel; 
confirm a tunnel's existence and location through mapping and 
measurements; and facilitate secure information sharing across all 
stakeholders.
Technology in the Air and Maritime Domains
    Air and Marine Operations (AMO) increases CBP's situational 
awareness, enhances its detection and interdiction capabilities, and 
extends our border security zones, offering greater capacity to stop 
threats before they reach our shores. AMO's assets provide multi-domain 
awareness for our partners across DHS, as well as critical aerial and 
maritime surveillance, interdiction, and operational assistance to our 
ground personnel. AMO performs its offshore functions in coordination 
with the U.S. Coast Guard and DHS's interagency partners.
    AMO is investing in high-speed Coastal Interceptor Vessels 
specifically designed and engineered with the speed, maneuverability, 
seakeeping, and endurance necessary to intercept and engage a variety 
of suspected non-compliant vessels in offshore waters and on the Great 
Lakes. Additionally, AMO's Small Vessel Standoff Detection radiation 
detection capability increases the probability of detecting 
radiological and nuclear materials that might be used in an attack. 
This transportable equipment is effective against small private or 
commercial vessels, and can detect a potential threat in advance of a 
boarding.
    Multi-role Enforcement Aircraft (MEA) are sensor-equipped aircraft 
for surveillance operations in regions where terrain, weather, and 
distance pose significant obstacles to border security operations. The 
MEA serves as a force multiplier for law enforcement personnel, 
facilitating the rapid-response deployment of equipment, canines, and 
people.
    P-3 Long-Range Trackers and Airborne Early Warning Aircraft provide 
critical detection and interdiction capability in both the air and 
marine environments. CBP P-3s are an integral part of the successful 
counter-narcotic missions operated in coordination with the Joint 
Interagency Task Force--South. The P-3s patrol a 42 million-square-mile 
area that includes more than 41 nations, the Pacific Ocean, Gulf of 
Mexico, Caribbean Sea, and seaboard approaches to the United States. In 
fiscal year 2017, CBP's P-3 operational efforts assisted in the seizure 
or disruption of the delivery of more than 163,000 pounds of cocaine, 
with an estimated wholesale value of $2.2 billion.
    Multiple AMO aircraft are equipped with electro-optical/infrared 
(EO/IR) sensor systems that provide improved detection and 
identification capabilities, greater standoff ranges for more covert 
operation and safety, and have laser range finders, laser target 
illumination, and Shortwave Infrared functionality. These systems equip 
AMO aircraft with the capability to detect persons, vehicles, vessels, 
and aircraft during day, night, and in adverse visibility conditions, 
thus enabling classification of threats and enhancing mission value for 
ground agents.
    Other critical components of AMO's aircraft fleet include the UH-60 
Black Hawk helicopters which are able to carry 8 agents with full gear. 
The Light Enforcement Helicopter is a multi-mission helicopter used for 
aerial surveillance, tactical support, patrol of high-risk areas, and 
to transport agents responding to illegal border incursions, as well as 
serve search and arrest warrants. Another important asset is the DHC-8 
Maritime Patrol Aircraft, which bridges the gap between strategic 
assets, such as the P-3 and Unmanned Aircraft System (UAS).
    AMO's aircraft have received a number of technological upgrades to 
increase their utility. For example, avionics upgrades to the AS-350 
helicopter allow operators to focus more of their attention on the 
mission, making them more effective. AMO has also added (EO/IR) 
detection technology to its fixed-wing, light observation aircraft, 
thereby greatly increasing its tactical capabilities.
    UAS are an increasingly important part of CBP's layered and 
integrated approach to border security. CBPs UAS consist of an unmanned 
aircraft, sensors, communication packages, pilots, and ground control 
operators. UAS platforms are used for surveillance, detection, and 
other mission requirements along the Southwest Border, Northern Border, 
and in the drug source and transit zones. The UAS program has logged 
over 44,800 flight hours since it began in fiscal year 2006, and has 
been credited with assisting in interdiction or disruption of the 
movement of cocaine and marijuana with an estimated wholesale value of 
$1.1 billion. CBP can equip four UAS aircraft with Vehicle and Dismount 
Exploitation Radar (VADER) sensor systems, which can detect human 
movement along the ground. Since 2012, VADER has detected over 51,600 
people moving across the Southwest Border.
    Important advancements have come in the area of data integration 
and exploitation. New downlink technology allows AMO to provide a video 
feed and situational awareness to law enforcement personnel in real 
time. In addition, the Minotaur mission management system will enable 
the integration and geo-synchronization of multiple aircraft sensors, 
mission databases, and intelligence-gathering devices and allow 
multiple aircraft to share information from multiple sources, providing 
a never-before-seen level of air, land, and maritime domain awareness.
    AMO's Tethered Aerostat Radar System (TARS) monitors the low-
altitude approaches to the United States. With 8 aerostat sites, the 
TARS elevated sensor mitigates the effect of the curvature of the earth 
and terrain-masking limitations associated with ground-based radars, 
enabling maximum long-range radar detection capabilities. From fiscal 
year 2014 through fiscal year 2016, TARS was responsible for detecting 
86 percent of all suspected air smuggling flights approaching the 
Southwest Border from Mexico.
    A vital component of DHS's domain awareness capabilities, AMO's Air 
and Marine Operations Center (AMOC) integrates surveillance 
capabilities and coordinates National security threat response with 
other CBP operational components, including USBP. It also works with 
other Federal and international partners.\1\ AMOC helps AMO and its 
partners predict, detect, identify, classify, respond to, and resolve 
suspect aviation and maritime activity in the approaches to U.S. 
borders, at the borders, and within the interior of the United States. 
AMOC utilizes extensive law enforcement and intelligence databases, 
communication networks, and the Air and Marine Operations Surveillance 
System (AMOSS). The AMOSS provides a single display capable of 
processing up to 700 individual sensor feeds and tracking over 50,000 
individual targets simultaneously. The 8 TARS sites represent 
approximately 2 percent of the total integrated radars in AMOSS, yet 
accounted for 53 percent of all suspect target detections.
---------------------------------------------------------------------------
    \1\ AMOC partners include the Federal Aviation Administration 
(FAA), the Department of Defense (including the North American 
Aerospace Defense Command (NORAD)), and the governments of Mexico, 
Canada, and the Bahamas.
---------------------------------------------------------------------------
    As we continue to deploy border surveillance technology, 
particularly along the Southwest Border, these investments in fixed and 
mobile technology, as well as enhancements of domain awareness 
capabilities provided by the AMOC, allow CBP the flexibility to shift 
more agents from detection duties to interdiction of illegal 
activities.
Access & Mobility
    USBP has consistently identified Access and Mobility as a key 
capability for gaining and maintaining operational control of the 
Southern Border. Access and Mobility is the ability to access areas of 
responsibility and, under all conditions, effect mobility for 
responding to illicit cross-border activity. CBP's portfolio currently 
includes over 900 miles of access roads. Roads are necessary to 
increase access points and expand patrol roads in high-priority areas. 
Patrol roads decrease travel time, improve incident response time, and 
increase the effective patrol range of USBP Agents (BPAs). Roads are a 
force multiplier and key in establishing operational control of the 
border.
               border technology requirements development
    DHS is committed to effective and efficient resource allocation and 
ensures that all potential investments to fulfill capability gaps are 
subject to appropriate oversight from identification of potential need, 
validation of requirements, research and development, acquisition, 
testing, fielding, operation and sustainment, and ultimately disposal. 
CBP works closely with other elements of DHS Headquarters and other DHS 
components to ensure strategy-led, operationally informed requirements 
development. This process enables DHS to execute acquisition strategies 
and budgets effectively and efficiently that address the broad range of 
complex border threats and challenges, including illegal migration, 
smuggling of illegal drugs, human and arms trafficking, and the threat 
of terrorist exploitation of border vulnerabilities.
    For example, CBP works closely with the DHS Science & Technology 
Directorate (S&T) to identify and develop technology to improve our 
surveillance and detection capabilities along our land and maritime 
borders. This includes investments in tunnel detection and tunnel 
activity monitoring technology; tactical communication upgrades, and 
small UAS; low-flying aircraft detection and tracking systems, land and 
maritime data integration/data fusion capabilities, and border 
surveillance tools tailored to the Northern and Southern Borders, 
including unattended ground sensors/tripwires, upgrades for mobile 
surveillance systems, slash camera poles, and wide-area surveillance.
    In addition to collaboration with our DHS partners, as part of 
CBP's efforts to seek innovative ways to acquire and use technology, 
CBP formed a partnership with DOD to identify and reuse excess DOD 
technology. To date, CBP has acquired several types of technology from 
DOD, including thermal imaging equipment, night vision equipment, and 
tactical aerostat systems, which increase CBP's situational awareness 
and operational flexibility in responding to border threats. We will 
continue to pursue additional opportunities to leverage DOD excess 
equipment. We will do this in a sustainable way by considering the full 
life-cycle costs of the DOD equipment we are considering before 
acquiring it.
                          hiring and personnel
    Front-line and non-front-line personnel are one of the most 
critical resources for improving border security. Mission readiness--
the ability to properly train and equip personnel--is critical to CBP's 
ability to secure the border and protect the American people.
    EO 13767 mandated the hiring of 5,000 additional BPAs. To implement 
this direction, and as operational demands continue to evolve, CBP 
continues to explore all avenues to meet current and future human 
capital needs. CBP subjects its recruitment and hiring practices to an 
on-going cycle of analysis and refinement, working constantly to 
strengthen its hiring capabilities and secure adequate staffing for 
critical front-line operations and the network of personnel who support 
these operations. CBP's strategy includes initiatives designed to 
attract more applicants who are suited to the unique demands of CBP's 
mission, expedite the pre-employment time line, refine the hiring 
process to address potential bottlenecks, and reduce the attrition rate 
of the existing workforce.
    In pursuit of our hiring goals, CBP recruiters will continue to 
participate in thousands of recruiting events, seeking to reach a 
diverse spectrum of applicants. In fiscal year 2017, CBP participated 
in more than 3,000 recruitment and outreach events. In fiscal year 
2018, CBP has thus far participated in nearly 700 recruitment and 
outreach events. CBP's use of advanced data analytics to direct 
recruitment efforts, deemed a best practice by the Office of Personnel 
Management, has enabled CBP to identify demographics with low brand 
awareness of the CBP, and to refocus recruitment efforts toward these 
gaps. This has resulted in an overall increase in applicants and 
lowered the number of applicants it takes for one officer or agent to 
on-board. Recruitment at events for veterans and transitioning military 
personnel continues to be a top priority. CBP will continue to enhance 
our data analytics capabilities, refining CBP's ability to identify 
groups of people who are most likely to pursue or be interested in a 
law enforcement career and providing us with targeted areas and 
specific audiences for recruitment. In addition, CBP will focus on 
digital advertising, and enhance branding through relationships with 
community partners.
    CBP's new front-line hiring process has led to significant 
reductions in the average time to hire. In the last 12 months, close to 
70 percent of new BPAs and 60 percent of new CBP Officers on-boarded in 
313 days or fewer, with 13 percent of each occupation on-boarding 
within 160 days, a significant improvement from the 469-day overall 
baseline established in January 2016. By streamlining CBP's hiring 
process, CBP has increased the applicant-to-Enter onto Duty rate, 
preventing otherwise qualified candidates from dropping out due to 
process fatigue or to accepting more timely job offers elsewhere.
    A significant challenge for CBP is that much of our work must be 
carried out in remote locations. It can be difficult to attract 
applicants who are willing to work in these locations, and it is a 
significant factor in our attrition. CBP is working to develop programs 
that address attrition through relocation and retention incentives that 
meet employee aspirations, and at the same time enable CBP to staff 
these locations. We believe that a stable relocation program will help 
meet operational requirements and alleviate the lack of mobility, which 
significantly contributes to increased attrition across the workforce. 
Recruitment incentives are also helpful in attracting new personnel to 
join CBP, especially for positions in geographic locations that are 
difficult to fill. CBP is thankful for the continued dedication of 
Members of Congress to work collaboratively with CBP to develop 
solutions to this complicated challenge.
                               conclusion
    The border environment is dynamic and requires constant adaptation 
to respond to emerging threats and changing conditions. DHS cannot 
achieve the high-priority operational control of the border that is 
vital to our Nation's economic prosperity and security without the 
requested border wall system, and legislative fixes needed to address 
the challenges of today's border environment. Facilities, systems, 
information technology, infrastructure, and assets that enable rapid 
deployment and mobility will enable CBP to respond effectively to 
changes in threats in the border environment. With the support of 
Congress, DHS will continue to secure our Nation's borders through the 
risk-based deployment of infrastructure, personnel, and technology.
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify today. We 
look forward to your questions.

    Ms. McSally. Thank you, Under Secretary Grady.
    The Chair now recognizes Deputy Commissioner Vitiello for 5 
minutes.

 STATEMENT OF RONALD D. VITIELLO, ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Vitiello. Thank you. Chairwoman McSally, Ranking Member 
Vela, and distinguished Members of the subcommittee, thank you 
for the opportunity to appear before you today to discuss how 
U.S. Customs and Border Protection uses the right mix of 
technology, infrastructure, and personnel to achieve our 
strategic and operational border security objectives.
    Barriers, roads, gates, lights, sensors, enforcement 
cameras, other related systems all contribute to CBP's work to 
prevent terrorists and terrorist weapons, illegal aliens, 
smugglers, narcotics, and other contraband from crossing U.S. 
borders.
    I started my career with the United States Border Patrol 
over 30 years ago and have seen first-hand how border barriers 
enhance operational capabilities. Border barriers create an 
enduring capability that impedes, deters, and prevents illegal 
entries. Technology and access roads, enhanced situational 
awareness enable agents and officers to respond to changing 
threats quickly and effectively.
    CBP plans to deploy border wall system in a multi-faced 
approach that meets the U.S. Border Patrol's operational 
requirements, safeguards the National security and public 
safety and is the result of thorough analysis of threat and 
mission effectiveness. CBP is committed to ensuring that all 
stakeholder communities are informed throughout the process. 
CBP deploys proven effective technology at and between our 
ports of entry. Technology is an invaluable force multiplier 
that increases situational awareness, reduces safety risks for 
our front-line personnel.
    Persistent surveillance technologies enable Border Patrol 
to remotely detect, identify, classify, and track items of 
interest. Mobile technologies give Border Patrol the 
flexibility to adapt to changing border conditions and threats.
    CBP's air and marine operations increases CBP's situational 
awareness, enhances our detection and interdiction 
capabilities, and extends our border security zones. AMO's 
assets including aircraft, coastal interceptor vessels, and 
sophisticated downlink technology provide multi-domain 
awareness for our partners across DHS. AMO also provides 
critical aerial and maritime surveillance interdiction and 
operational assistance to ground personnel.
    CBP continues to strengthen our hiring capabilities to 
reach our staffing goals. CBP's use of advanced data analytics 
have resulted in an overall increase in applicants, lowered the 
number of applicants it takes to on-board an officer or an 
agent, and reduced the time to hire.
    In the last 12 months, close to 70 percent of new Border 
Patrol Agents and 60 percent of new CBP Officers on-boarded in 
313 days or fewer with 13 percent of each occupation on-
boarding within 160 days. This is a significant improvement 
from January 2016 when it took 469 days.
    In addition, our large-scale but focused marketing efforts 
have increased not only the quality and quantity of front-line 
applicants, CBP saw a 42 percent increase in applicants between 
fiscal year 2016 and 2017, but also the quality of these 
applicants as we continue to identify individuals who are more 
likely to succeed through the process. In fiscal year 2016, CBP 
needed 179 applications to on-board one agent or officer. In 
fiscal year 2017, these numbers are down to 74 and 42 
applicants respectively.
    As we continue to build on our many advancements over the 
last 2 years, we are optimistic that positive trends will 
continue and that our efforts will not only enable us to reach 
our hiring targets, but ensure that CBP can always adapt 
effectively to a growing and increasingly complex mission.
    With the support of Congress, CBP will continue to secure 
our Nation's border through the risk-based deployment of 
infrastructure, personnel, and technology. Each of these 
investments strengthens the capability CBP needs to achieve 
operational control of the border.
    I would be remiss if I did not mention the officers and 
agents on the front line. Many of you have been to visit them 
and seen in the field and seen what good they do. The border 
environment is at times challenging. Despite that, the men and 
women of CBP are undaunted in their pursuit of securing 
borders. They protect our Nation as law enforcers in many 
situations and serve as selfless humanitarians.
    I pray that my representation of them is as worthy as the 
service that they and their families give to this great Nation. 
Thank you for having me as a witness today. I look forward to 
your questions.
    Ms. McSally. Thank you. Thanks so much--sorry--Deputy 
Commissioner Vitiello.
    The Chair now recognizes Ms. Gambler for 5 minutes.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good afternoon, Chairwoman McSally, Ranking 
Member Vela, and Members of the subcommittee. I appreciate the 
opportunity to testify at today's hearing to discuss GAO's work 
on the Department of Homeland Security's efforts to deploy 
surveillance technologies, physical barriers, and personnel 
along the Southwest Border.
    Over the years, GAO has issued dozens of reports addressing 
these areas and today I am going to highlight our key findings 
and recommendations. First, as it relates to the deployment of 
surveillance technologies, DHS has made progress. As of 
November 2017, DHS had completed deployment of selected 
technologies to areas in Arizona, Texas, and California. These 
technologies include fixed and mobile assets with cameras and 
radars.
    For example, DHS reported deploying all planned remote 
video surveillance systems and mobile surveillance capability 
systems to Arizona. DHS also deployed 15 of 53 integrated fixed 
tower systems to Arizona as of November 2017. DHS deployed all 
planned mobile surveillance capability systems to Texas and 
California.
    Regarding physical barriers, from fiscal years 2007 through 
2015, DHS spent approximately $2.4 billion on tactical 
infrastructure on the Southwest Border, which includes fencing, 
roads, lighting, and other assets. About 95 percent of that 
amount was spent on constructing pedestrian and vehicle fencing 
or barriers. There is about 654 miles of primary pedestrian and 
vehicle fencing along the Southwest Border, and some areas of 
the border also have second and third layers of fencing.
    These deployments of surveillance technologies and physical 
barriers have benefited border security operations. Reported 
benefits from technology and barriers include better 
situational awareness, improved agent safety, and reduced 
vehicle incursions among others.
    However, despite these benefits DHS has not established 
metrics for assessing its investments in surveillance 
technologies and physical barriers. DHS collects data that it 
could use to help make such assessments including data on 
illegal entries, apprehensions, seizures, and asset assist.
    We have reported that with regard to fencing, for example, 
DHS could use these data to compare the occurrence and location 
of the illegal entries before and after construction. DHS could 
also use these data to help determine the extent to which 
barriers contribute to diverting illegal entrance into more 
rural and remote environments and their impact, if any, on 
apprehension rates over time.
    We have made recommendations to DHS to establish metrics 
and use available data to assess the contributions of 
surveillance technologies and barriers to border security 
operations. These metrics and data can be helpful to DHS in 
informing future investment and resource decisions.
    To its credit, DHS has agreed with these recommendations 
and is taking action toward addressing them. We are continuing 
to monitor DHS's progress in addressing these and other 
recommendations related to strengthening the Department's 
management, oversight, and planning for border security 
programs.
    In that vein, we have on-going work reviewing DHS's 
planning efforts for a border wall system. DHS has procured and 
tested 8 barrier prototypes and we are currently evaluating how 
DHS conducted and is using those prototypes and tests. We plan 
to report on the results of our work later this year.
    Turning to personnel resources, we also have on-going work 
for the subcommittee reviewing CBP's efforts to recruit, hire, 
and retain law enforcement personnel. We also expect to report 
on the results of this work later this year.
    Our prior work on Border Patrol deployment strategy has 
identified staffing challenges for the agency. In particular, 
Border Patrol has faced challenges in staffing to its 
authorized levels. In recent years, Border Patrol has on 
average lost more agents than it has hired.
    CBP has identified challenges faced in hiring efforts such 
as duty locations, compensation, and competition with other law 
enforcement agencies. These staffing challenges can affect the 
Border Patrol's deployment strategy. Through our prior work we 
found that officials from all 9 Southwest Border Patrol sectors 
cited current staffing levels and the availability of agents as 
a challenge for optimal deployment.
    In closing, our work has identified both progress and 
challenges in DHS's efforts to deploy and manage technologies, 
physical barriers, and personnel to secure the Southwest 
Border. We have also identified opportunities for DHS to 
strengthen its border security programs and efforts and better 
assess the contributions of its investments to overall border 
security. We will continue to monitor DHS's efforts in these 
areas.
    This completes my prepared statement and I am happy to 
answer any questions Members may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                             March 15, 2018
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to be here today to discuss GAO's work 
reviewing the Department of Homeland Security's (DHS) efforts to deploy 
surveillance technology, tactical infrastructure, and personnel 
resources to the Southwest Border. This area continues to be vulnerable 
to illegal cross-border activity. The U.S. Border Patrol reported 
apprehending almost 304,000 illegal entrants and making over 11,600 
drug seizures along the Southwest Border in fiscal year 2017. In 
January 2017, an Executive Order called for, among other things, the 
immediate construction of a Southwest Border wall and the hiring of 
5,000 additional Border Patrol Agents, subject to available 
appropriations.\1\
---------------------------------------------------------------------------
    \1\ Border Security and Immigration Enforcement Improvements, Exec. 
Order No. 13767,  2, 8 (Jan. 25, 2017), 82 Fed. Reg. 8793, 8795 (Jan. 
30, 2017). The Executive Order defines ``wall'' as a contiguous, 
physical wall or other similarly secure, contiguous, and impassable 
physical barrier.
---------------------------------------------------------------------------
    The Border Patrol, within DHS's U.S. Customs and Border Protection 
(CBP), is the Federal agency responsible for securing the National 
borders between U.S. ports of entry.\2\ The Border Patrol divides 
responsibility for Southwest Border security operations geographically 
among 9 sectors, and each sector is further divided into varying 
numbers of stations. To respond to cross-border threats, DHS has 
employed a combination of key resources, including surveillance 
technology, tactical infrastructure (which includes fencing, roads, and 
lighting), and Border Patrol Agents. For example, DHS has deployed a 
variety of land-based surveillance technologies, such as cameras and 
sensors, which the Border Patrol uses to assist its efforts to secure 
the border and to apprehend individuals attempting to cross the border 
illegally.\3\ In addition, CBP spent approximately $2.4 billion from 
fiscal years 2007 through 2015 to deploy tactical infrastructure, 
including about $2.3 billion on fencing, at locations along the nearly 
2,000-mile long Southwest Border. The Border Patrol deploys agents 
along the immediate border and in areas up to 100 miles from the border 
as part of a layered approach the agency refers to as the defense-in-
depth strategy, and the Border Patrol reported it had 16,605 agents 
staffed at Southwest Border sectors at the end of fiscal year 2017.\4\
---------------------------------------------------------------------------
    \2\ See 6 U.S.C. Sec. 211(a) (establishing CBP within DHS), (c) 
(enumerating CBP's duties), (e) (establishing and listing duties of the 
U.S. Border Patrol within CBP). Ports of entry are facilities that 
provide for the controlled entry into or departure from the United 
States. Specifically, a port of entry is any officially designated 
location (seaport, airport, or land border location) where DHS officers 
or employees are assigned to clear passengers and merchandise, collect 
duties, and enforce customs laws, and where DHS officers inspect 
persons entering or applying for admission into, or departing the 
United States pursuant to U.S. immigration law and travel controls.
    \3\ In November 2005, DHS launched the Secure Border Initiative 
(SBI) to develop a comprehensive border protection system using 
technology, known as the Secure Border Initiative Network (SBInet). 
Under the SBInet program, CBP acquired 15 fixed-tower systems at a cost 
of nearly $1 billion, which are deployed along 53 miles of Arizona's 
387-mile border with Mexico. In January 2011, in response to internal 
and external assessments that identified concerns, the Secretary of 
Homeland Security announced the cancellation of further procurements of 
SBInet surveillance systems. That same month, CBP introduced the 
Arizona Border Surveillance Technology Plan. In June 2014, CBP 
developed the Southwest Border Technology Plan, which incorporates the 
Arizona Technology Plan, and plans to extend land-based surveillance 
technology deployments to the remainder of the Southwest Border.
    \4\ As part of this strategy, the Border Patrol deploys some agents 
to activities along the immediate border while other agents may be 
assigned to activities further from the border, such as immigration 
checkpoint operations that are generally located on highways 25 to 100 
miles from the border.
---------------------------------------------------------------------------
    Since 2009 we have issued over 35 products on the progress DHS and 
its components have made and challenges it faces in using surveillance 
technology, tactical infrastructure, personnel, and other resources to 
secure the Southwest Border.\5\ As a result of this work, we have made 
over 50 recommendations to help improve DHS oversight over efforts to 
secure the Southwest Border, and DHS has implemented more than half of 
them. My statement describes: (1) DHS efforts to deploy and measure the 
effectiveness of surveillance technologies, (2) DHS efforts to maintain 
and assess the effectiveness of existing tactical infrastructure and 
deploy new physical barriers, and (3) staffing challenges the Border 
Patrol has faced.
---------------------------------------------------------------------------
    \5\ See Related GAO Products page.
---------------------------------------------------------------------------
    This statement is based on three reports we issued in 2017, and on 
selected updates we conducted in November and December 2017 on the 
Border Patrol's efforts to address some of our previous 
recommendations.\6\ This statement also includes preliminary 
observations and analyses from on-going work related to the 
construction of new and replacement physical barriers along the 
Southwest Border and our fourth annual assessment of select DHS major 
acquisition programs.\7\ Our reports and testimonies, along with 
selected updates, incorporated information we obtained and analyzed 
from officials at various DHS components, and during site visits along 
the Southwest Border. More detailed information about our scope and 
methodology can be found in our published reports and testimonies. For 
on-going work, we reviewed acquisition documents, such as CBP's Concept 
of Operations for Impedance and Denial, the Wall System Operational 
Requirements Document, and the Border Wall Prototype Test Plan. We also 
met with officials from DHS components, including CBP's Office of 
Facilities and Management and the Border Patrol, from September 2017 to 
January 2018. Further, in December 2017 we conducted a site visit to 
California to view existing tactical infrastructure and border wall 
prototypes that will inform the design of future physical barriers 
along the Southwest Border. All of our work was conducted in accordance 
with generally accepted Government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \6\ GAO, Southwest Border Security: Border Patrol Is Deploying 
Surveillance Technologies but Needs to Improve Data Quality and Assess 
Effectiveness, GAO-18-119 (Washington, DC: Nov. 30, 2017); Southwest 
Border Security: Additional Actions Needed to Better Assess Fencing's 
Contributions and Provide Guidance for Identifying Capability Gaps, 
GAO-17-331 (Washington, DC: Feb. 16, 2017); Border Patrol: Issues 
Related to Agent Deployment Strategy and Immigration Checkpoints, GAO-
18-50 (Washington, DC: Nov. 8, 2017).
    \7\ We plan to complete the current annual assessment of DHS major 
acquisition programs in spring 2018. For the most recently published 
report, see: GAO, Homeland Security Acquisitions: Earlier Requirements 
Definition and Clear Documentation of Key Decisions Could Facilitate 
On-going Progress, GAO-17-346SP (Washington, DC: Apr. 6, 2017). We plan 
to complete the review related to the construction of new and 
replacement physical barriers along the Southwest Border later this 
year.
---------------------------------------------------------------------------
   cbp has made progress deploying surveillance technology along the 
       southwest border, but has not fully assessed effectiveness
    On multiple occasions since 2011, we have reported on the progress 
the Border Patrol has made deploying technologies along the Southwest 
Border. Figure 1 shows the land-based surveillance technology systems 
used by the Border Patrol.
  figure 1: border surveillance technology systems used by the border 
                                 patrol

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    In November 2017, we reported on the progress the Border Patrol 
made deploying technology along the Southwest Border in accordance with 
its 2011 Arizona Technology Plan and 2014 Southwest Border Technology 
Plan.\8\ For example, we reported that, according to officials, the 
Border Patrol had completed deployments of all planned Remote Video 
Surveillance Systems (RVSS), Mobile Surveillance Capability systems, 
and Unattended Ground Sensors, as well as 15 of 53 Integrated Fixed 
Tower systems to Arizona. The Border Patrol had also completed 
deployments of select technologies to Texas and California, including 
deploying 32 Mobile Surveillance Capability systems. In addition, the 
Border Patrol had efforts under way to deploy other technology 
programs, but at the time of our report, some of those programs had not 
yet begun deployment or were not yet under contract. For example, we 
reported that, according to the Border Patrol officials responsible for 
the RVSS program, the Border Patrol had begun planning the designs of 
the command-and-control centers and towers for the Rio Grande Valley 
sector in Texas. Further, we reported that the Border Patrol had not 
yet initiated deployments of RVSS to Texas because, according to Border 
Patrol officials, the program had only recently completed contract 
negotiations for procuring those systems. Additionally, the Border 
Patrol initially awarded the contract to procure and deploy Mobile 
Video Surveillance System units to Texas in 2014, but did not award the 
contract until 2015 because of bid and size protests, and the vendor 
that was awarded the contract did not begin work until March 2016.\9\ 
Our November 2017 report includes more detailed information about the 
deployment status of surveillance technology along the Southwest Border 
as of October 2017.
---------------------------------------------------------------------------
    \8\ GAO-18-119.
    \9\ A bid protest, filed with GAO, is a dispute in which the 
protester alleges that a Federal agency has not complied with statutes 
and regulations controlling Government procurements. A size protest, 
filed with the Small Business Administration, is a challenge of the 
determination that an awardee of a small business set-aside contract 
meets the definition of ``small business'' in order to be eligible for 
the set-aside.
---------------------------------------------------------------------------
    We also reported in November 2017 that the Border Patrol had made 
progress identifying performance metrics for the technologies deployed 
along the Southwest Border, but additional actions are needed to fully 
implement our prior recommendations in this area. For example, in 
November 2011, we found that CBP did not have the information needed to 
fully support and implement the Arizona Technology Plan and recommended 
that CBP: (1) Determine the mission benefits to be derived from 
implementation of the Arizona Technology Plan, and (2) develop and 
apply key attributes for metrics to assess program implementation.\10\ 
CBP concurred with our recommendations and has implemented one of them. 
Specifically, in March 2014, we reported that CBP had identified 
mission benefits of its surveillance technologies to be deployed along 
the Southwest Border, such as improved situational awareness and agent 
safety. However, the agency had not developed key attributes for 
performance metrics for all surveillance technologies to be 
deployed.\11\
---------------------------------------------------------------------------
    \10\ GAO, Arizona Border Surveillance Technology: More Information 
on Plans and Costs Is Needed before Proceeding, GAO-12-22 (Washington, 
DC: Nov. 4, 2011).
    \11\ GAO, Arizona Border Surveillance Technology Plan: Additional 
Actions Needed to Strengthen Management and Assess Effectiveness, GAO-
14-368 (Washington, DC: Mar. 3, 2014).
---------------------------------------------------------------------------
    Further, we reported in March 2014 that CBP did not capture 
complete data on the contributions of these technologies. When used in 
combination with other relevant performance metrics or indicators, 
these data could be used to better determine the impact of CBP's 
surveillance technologies on CBP's border security efforts and inform 
resource allocation decisions. Therefore, we recommended that CBP: (1) 
Require data on technology contributions to apprehensions or seizures 
to be tracked and recorded within its database and (2) subsequently 
analyze available data on apprehensions and technological assists--in 
combination with other relevant performance metrics or indicators, as 
appropriate--to determine the contribution of surveillance 
technologies. CBP concurred with our recommendations and has 
implemented one of them. Specifically, in June 2014, the Border Patrol 
issued guidance informing agents that the asset assist data field--
which records assisting technology or other assets (canine teams)--in 
its database had become a mandatory data field.
    While the Border Patrol has taken action to collect data on 
technology, it has not taken additional steps to determine the 
contribution of surveillance technologies to CBP's border security 
efforts. In April 2017, we reported that the Border Patrol had provided 
us a case study that assessed technology assist data, along with other 
measures, to determine the contributions of surveillance technologies 
to its mission.\12\ We reported that this was a helpful step in 
developing and applying performance metrics; however, the case study 
was limited to one border location and the analysis was limited to 
select technologies. In November 2017, we reported that Border Patrol 
officials demonstrated the agency's new Tracking, Sign Cutting, and 
Modeling (TSM) system, which they said is intended to connect between 
agents' actions (such as identification of a subject through the use of 
a camera) and results (such as an apprehension) and allow for more 
comprehensive analysis of the contributions of surveillance 
technologies to the Border Patrol's mission. One official said that 
data from the TSM will have the potential to provide decision makers 
with performance indicators, such as changes in apprehensions or 
traffic before and after technology deployments. However, at the time 
of our review, TSM was still early in its use and officials confirmed 
that it was not yet used to support such analytic efforts. We continue 
to believe that it is important for the Border Patrol to assess 
technologies' contributions to border security and will continue to 
monitor the progress of the TSM and other Border Patrol efforts to meet 
our 2011 and 2014 recommendations.
---------------------------------------------------------------------------
    \12\ GAO, 2017 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-17-491SP (Washington, DC: Apr. 26, 2017).
---------------------------------------------------------------------------
  cbp is planning to construct new physical barriers, but has not yet 
                assessed the impact of existing fencing
Fencing Is Intended to Assist Agents in Performing Their Duties, but 
        Its Contributions to Border Security Operations Have Not Been 
        Assessed
    We have reported on the significant investments CBP has made in 
tactical infrastructure along the Southwest Border. The Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 (IIRIRA), 
as amended, provides that the Secretary of Homeland Security shall take 
actions, as necessary, to install physical barriers and roads in the 
vicinity of the border to deter illegal crossings in areas of high 
illegal entry.\13\ The Secure Fence Act of 2006, in amending IIRIRA, 
required DHS to construct at least two layers of reinforced fencing as 
well as physical barriers, roads, lighting, cameras, and sensors on 
certain segments of the Southwest Border.\14\ From fiscal years 2005 
through 2015, CBP increased the total miles of primary border fencing 
on the Southwest Border from 119 miles to 654 miles--including 354 
miles of primary pedestrian fencing and 300 miles of primary vehicle 
fencing.\15\ In addition, CBP has deployed additional layers of 
pedestrian fencing behind the primary border fencing, including 37 
miles of secondary fencing.\16\ From fiscal years 2007 through 2015, 
CBP spent approximately $2.4 billion on tactical infrastructure on the 
Southwestern Border--and about 95 percent, or around $2.3 billion, was 
spent on constructing pedestrian and vehicle fencing. CBP officials 
reported it will need to spend additional amounts to sustain these 
investments over their lifetimes. In 2009, CBP estimated that 
maintaining fencing would cost more than $1 billion over 20 years.\17\ 
CBP used various fencing designs to construct the 654 miles of primary 
pedestrian and vehicle border fencing. Figure 2 shows examples of 
existing pedestrian fencing deployed along the border.
---------------------------------------------------------------------------
    \13\ Illegal Immigration Reform and Immigrant Responsibility Act of 
1996 (IIRIRA), Pub. L. No. 104-208, div. C, tit. I, subtit. A,  
102(a), 110 Stat. 3009, 3009-554 (classified, as amended, at 8 U.S.C.  
1103 note).
    \14\ See Pub. L. No. 109-367,  3, 120 Stat. 2638, 2638-2639. Under 
the Secure Fence Act of 2006, the Secretary of Homeland Security is to 
achieve and maintain operational control over the borders of the United 
States through surveillance activities and physical infrastructure 
enhancements to prevent unlawful entry by aliens and facilitate CBP's 
access to the borders. See id.  2, 120 Stat. at 2638 (classified at 8 
U.S.C.  1701 note). Subsequently, the DHS Appropriations Act, 2008, 
rewrote the border fencing requirements section of IIRIRA to require 
that DHS construct not less than 700 miles of reinforced fencing along 
the Southwest Border where fencing would be most practical and 
effective, and to provide for the installation of additional physical 
barriers, roads, lighting, cameras, and sensors to gain operational 
control of the Southwest Border. IIRIRA  102(b), 110 Stat. at 3009-554 
to -555, as amended by Pub. L. No. 110-161, div. E, tit. V,  
564(a)(2)(B)(ii), 121 Stat. 1844, 2090-91 (2007) (classified at 8 
U.S.C.  1103 note). IIRIRA  102(b), as amended, also gives the 
Secretary of Homeland Security discretion to install tactical 
infrastructure in particular locations along the border, as deemed 
appropriate. Id.
    \15\ See 8 U.S.C.  1103 note (notwithstanding fencing 
requirements, DHS is not required to install fencing or other resources 
in a particular location along the border if the Secretary of Homeland 
Security determines that the use or placement of such resources is not 
the most appropriate means to achieve and maintain operational control 
over the border at that location).
    \16\ The first layer of fencing, the primary fence, may include 
both pedestrian and vehicle fencing and is the first fence encountered 
when moving north from the border; the secondary fence, located behind 
the primary fence, consists solely of pedestrian fencing; and the third 
layer, or tertiary fence, is primarily used to delineate property lines 
rather than deter illegal entries.
    \17\ CBP's 2009 life-cycle cost estimate estimated operations and 
maintenance costs for fencing would be approximately $1.4 billion from 
2009 through 2029.
---------------------------------------------------------------------------
   figure 2: selected designs of existing pedestrian fencing on the 
                            southwest border

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    In February 2017, we reported that border fencing had benefited 
border security operations in various ways, according to the Border 
Patrol.\18\ For example, according to officials, border fencing 
improved agent safety, helped reduce vehicle incursions, and supported 
Border Patrol Agents' ability to respond to illicit cross-border 
activities by slowing the progress of illegal entrants. However, we 
also found that, despite its investments over the years, CBP could not 
measure the contribution of fencing to border security operations along 
the Southwest Border because it had not developed metrics for this 
assessment. We reported that CBP collected data that could help provide 
insight into how border fencing contributes to border security 
operations. For example, we found that CBP collected data on the 
location of illegal entries that could provide insight into where these 
illegal activities occurred in relation to the location of various 
designs of pedestrian and vehicle fencing. We reported that CBP could 
potentially use these data to compare the occurrence and location of 
illegal entries before and after fence construction, as well as to help 
determine the extent to which border fencing contributes to diverting 
illegal entrants into more rural and remote environments, and border 
fencing's impact, if any, on apprehension rates over time. Therefore, 
we recommended in February 2017 that the Border Patrol develop metrics 
to assess the contributions of pedestrian and vehicle fencing to border 
security along the Southwest Border using the data the Border Patrol 
already collects and apply this information, as appropriate, when 
making investment and resource allocation decisions. The agency 
concurred with our recommendation. As of December 2017, officials 
reported that CBP plans to establish initial metrics by March 2018 and 
finalize them in January 2019.
---------------------------------------------------------------------------
    \18\ GAO-17-331.
---------------------------------------------------------------------------
CBP Faces Challenges in Sustaining Tactical Infrastructure and Has Not 
        Provided Guidance on Its Process for Identifying and Deploying 
        Tactical Infrastructure
    In February 2017, we also reported that CBP was taking a number of 
steps to sustain tactical infrastructure along the Southwest Border; 
however, it continued to face certain challenges in maintaining this 
infrastructure.\19\ For example, CBP had funding allocated for tactical 
infrastructure sustainment requirements, but had not prioritized its 
requirements to make the best use of available funding, since CBP also 
required contractors to address urgent repair requirements. According 
to Border Patrol officials, CBP classifies breaches to fencing, grates, 
or gates as urgent and requiring immediate repair because breaches 
increase illegal entrants' ability to enter the country unimpeded. At 
the time of our February 2017 review, the majority of urgent tactical 
infrastructure repairs on the Southwest Border were fence breaches, 
according to Border Patrol officials. From fiscal years 2010 through 
2015, CBP recorded a total of 9,287 breaches in pedestrian fencing, and 
repair costs averaged $784 per breach.
---------------------------------------------------------------------------
    \19\ For the purpose of this statement, sustainment refers to the 
maintenance, repair, and replacement of tactical infrastructure.
---------------------------------------------------------------------------
    While contractors provide routine maintenance and address urgent 
repairs on tactical infrastructure, certain tactical infrastructure 
assets used by the Border Patrol--such as border fencing--become 
degraded beyond repair and must be replaced. For example, in February 
2017 we reported that CBP had provided routine maintenance and repair 
services to the primary legacy pedestrian fencing in Sunland Park, New 
Mexico. However, significant weather events had eroded the foundation 
of the fencing, according to the Border Patrol officials in the El Paso 
sector, and in 2015 CBP began to replace 1.4 miles of primary 
pedestrian fence in this area. We also reported on several additional 
CBP projects to replace degraded, legacy pedestrian fencing with more 
modern, bollard-style fencing. For example, in fiscal year 2016, CBP 
began removing and replacing an estimated 7.5 miles of legacy primary 
pedestrian fencing with modern bollard-style fencing within the Tucson 
sector. In addition, from fiscal years 2011 through 2016, CBP completed 
four fence replacement projects that replaced 14.1 miles of primary 
pedestrian legacy fencing in the Tucson and Yuma sectors at a total 
cost of approximately $68.26 million and an average cost of $4.84 
million per mile of replacement fencing. We plan to provide information 
on additional fence replacement projects in a forthcoming report.
    In 2014, the Border Patrol began implementing the Requirements 
Management Process that is designed to facilitate planning for funding 
and deploying tactical infrastructure and other requirements, according 
to Border Patrol officials. At the time of our February 2017 review, 
Border Patrol headquarters and sector officials told us that the Border 
Patrol lacked adequate guidance for identifying, funding, and deploying 
tactical infrastructure needs as part of this process. In addition, 
officials reported experiencing some confusion about their roles and 
responsibilities in this process. We reported that developing guidance 
on this process would provide more reasonable assurance that the 
process is consistently followed across the Border Patrol. We therefore 
recommended that the Border Patrol develop and implement written 
guidance to include roles and responsibilities for the steps within its 
requirements process for identifying, funding, and deploying tactical 
infrastructure assets for border security operations. The agency 
concurred with this recommendation and stated that it planned to update 
the Requirements Management Process and, as part of that update, 
planned to add communication and training methods and tools to better 
implement the process. As of December 2017, DHS plans to complete these 
efforts by September 2019.
CBP Has Tested Barrier Prototypes and Plans to Construct New Barriers 
        in San Diego and Rio Grande Valley Sectors
    In response to the January 2017 Executive Order, CBP established 
the Border Wall System Program to replace and add to existing barriers 
along the Southwest Border. In April 2017, DHS leadership authorized 
CBP to procure barrier prototypes, which are intended to help refine 
requirements and inform new or updated design standards for the border 
wall system. CBP subsequently awarded 8 contracts with a total value of 
$5 million for the construction, development, and testing of the 
prototypes. From October to December 2017, CBP tested 8 prototypes--4 
constructed from concrete and 4 from other materials--and evaluated 
them in 5 areas: Breachability, scalability, constructability, design, 
and aesthetics. CBP officials said the prototype evaluation results are 
expected by March 2018.
    CBP has selected the San Diego and Rio Grande Valley sectors for 
the first two segments of the border wall system. In the San Diego 
sector, CBP plans to replace 14 miles of existing primary and secondary 
barriers. The primary barriers will be rebuilt to existing design 
standards, but the secondary barriers will be rebuilt to new design 
standards once established. In the Rio Grande Valley sector, CBP plans 
to extend an existing barrier by 60 miles using existing design 
standards. CBP intends to prioritize construction of new or replacement 
physical barriers based on threat levels, land ownership, and 
geography, among other things. We have on-going work reviewing the 
Border Wall System Program, and we plan to report on the results of 
that work later this year.
      the border patrol has continued to face staffing challenges
    In November 2017 we reported that, in fiscal years 2011 through 
2016, the Border Patrol had statutorily established minimum staffing 
levels of 21,370 full-time equivalent agent positions, but the Border 
Patrol has faced challenges in staffing to that level.\20\ Border 
Patrol headquarters, with input from the sectors, determines how many 
authorized agent positions are allocated to each of the sectors. 
According to Border Patrol officials, these decisions take into account 
the relative needs of the sectors, based on threats, intelligence, and 
the flow of illegal activity. Each sector's leadership determines how 
many of the authorized agent positions will be allocated to each 
station within their sector.
---------------------------------------------------------------------------
    \20\ GAO-18-50. Department of Defense and Full-Year Continuing 
Appropriations Act, 2011, Pub. L. No. 112-10, div. B, tit. VI,  1608, 
125 Stat. 38, 140; Consolidated Appropriations Act, 2012, Pub. L. No. 
112-74, div. D, tit. II, 125 Stat. 786, 946 (2011); Consolidated and 
Further Continuing Appropriations Act, 2013, Pub. L. No. 113-6, div. D, 
tit. II, 127 Stat. 198, 345; Consolidated Appropriations Act, 2014, 
Pub. L. No. 113-76, div. F, tit. II, 128 Stat. 5, 249; Department of 
Homeland Security Appropriations Act, 2015, Pub. L. No. 114-4, tit. II, 
129 Stat. 39, 41; Consolidated Appropriations Act, 2016, Pub. L. No. 
114-113, div. F, tit. II, 129 Stat. 2242, 2495 (2015). For fiscal year 
2017, the Consolidated Appropriations Act, 2017, did not include the 
provision from prior years mandating a workforce floor for Border 
Patrol Agents, but the accompanying explanatory statement directed CBP 
to continue working to develop a fully justified workforce staffing 
model that would provide validated requirements for all U.S. borders 
and to brief the appropriations committees on its progress in this 
regard within 30 days of the enactment of the Consolidated 
Appropriations Act (enacted May 5, 2017). See Explanatory Statement, 
163 Cong. Rec. H3327, H3809-10 (daily ed. May 3, 2017), accompanying 
Pub. L. No. 115-31, 131 Stat. 135 (2017).
---------------------------------------------------------------------------
    At the end of fiscal year 2017, the Border Patrol reported it had 
over 19,400 agents on board Nation-wide, and that over 16,600 of the 
agents were staffed to sectors along the Southwest Border. As mentioned 
earlier, the January 2017 Executive Order called for the hiring of 
5,000 additional Border Patrol Agents, subject to available 
appropriations, and as of November 2017 we reported that the Border 
Patrol planned to have 26,370 agents by the end of fiscal year 2021. 
The Acting Commissioner of CBP reported in a February 2017 memo to the 
Deputy Secretary for Homeland Security that from fiscal year 2013 to 
fiscal year 2016, the Border Patrol hired an average of 523 agents per 
year while experiencing a loss of an average of 904 agents per 
year.\21\ The memo cited challenges such as competing with other 
Federal, State, and local law enforcement organizations for applicants. 
In particular, the memo noted that CBP faces hiring and retention 
challenges compared to DHS's U.S. Immigration and Customs Enforcement 
(which is also planning to hire additional law enforcement personnel) 
because CBP's hiring process requires applicants to take a polygraph 
examination, Border Patrol Agents are deployed to less desirable duty 
locations, and Border Patrol Agents generally receive lower 
compensation.
---------------------------------------------------------------------------
    \21\ The Acting Commissioner's memo outlines plans and requests to 
assist the Border Patrol in hiring more agents, including the 
additional 5,000 agents called for in the Executive Order on Border 
Security and Immigration Enforcement Improvements.
---------------------------------------------------------------------------
    In November 2017, we reported that the availability of agents is 
one key factor that affects the Border Patrol's deployment strategy. In 
particular, officials from all 9 Southwest Border sectors cited current 
staffing levels and the availability of agents as a challenge for 
optimal deployment. We reported that, as of May 2017, the Border Patrol 
had 17,971 authorized agent positions in Southwest Border sectors, but 
only 16,522 of those positions were filled--a deficit of 1,449 agents--
and 8 of the 9 Southwest Border sectors had fewer agents than the 
number of authorized positions. As a result of these staffing 
shortages, resources were constrained and station officials had to make 
decisions about how to prioritize activities for deployment given the 
number of agents available.
    We also reported in November 2017 that within sectors, some 
stations may be comparatively more understaffed than others because of 
recruitment and retention challenges, according to officials. 
Generally, sector officials said that the recruitment and retention 
challenges associated with particular stations were related to quality 
of life factors in the area near the station--for example, agents may 
not want to live with their families in an area without a hospital, 
with low-performing schools, or with relatively long commutes from 
their homes to their duty station. This can affect retention of 
existing agents, but it may also affect whether a new agent accepts a 
position in that location. For example, officials in one sector said 
that new agent assignments are not based solely on agency need, but 
rather also take into consideration agent preferences. These officials 
added that there is the potential that new agents may decline offers 
for stations that are perceived as undesirable, or they may resign 
their position earlier than they otherwise would to pursue employment 
in a more desirable location. We have on-going work reviewing CBP's 
efforts to recruit, hire, and retain its law enforcement officers, 
including Border Patrol Agents.
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, this concludes my prepared statement. I will be happy to 
answer any questions you may have.

    Ms. McSally. Thank you, Ms. Gambler. I appreciate it.
    I now recognize myself for 5 minutes for questions first 
round.
    Under Secretary Grady, so the request that we got that I 
referenced in our opening document was for $33 billion in the 
context again of the DACA discussion. We appreciate the $33 
billion and the breakdown of that. But there is also some 
numbers that have been thrown out within the White House 
framework of $25 billion requested for border security and some 
of it also calls for additional funding for ports of entry and 
entry and exit.
    We, in our bill, have created a trust fund for $38 billion 
trying to take into account all of these things to include 
additional agents at the ports of entry and technology at the 
ports of entry and everything that we really believe is needed. 
Can you just explain the difference of the numbers? I just want 
to make sure we are on the same page. Is it $25 billion? Is it 
$33 billion? Is it $38 billion? Because we think it is $38 
billion, so we just want to be clear.
    Ms. Grady. Absolutely, Chairwoman. There is actually more 
consistency to the numbers than it may appear. The big 
differences between those numbers are time frames in terms of 
duration as well as whether you included operation and support 
costs and personnel costs. So that is probably the most 
fundamental difference in terms of whether the costs of hiring 
the additional necessary Border Patrol Agents are included or 
not included.
    Throughout all those numbers, what is consistent is the 
border wall number looking at $18 billion and then there is 
technology, infrastructure and do you or don't you include the 
numbers associated with the Border Patrol Agents. Throughout 
all of these, we consider it very necessary to increase the 
number of Border Patrol Agents. It is whether it is included in 
that number that may become part of a trust fund or not is in 
the difference. One of the things that we think it is very 
important to inform the discussion is what is more of a one-
time cost with some sustainment versus a recurring which our 
Border Patrol Agents' salaries would be a recurring cost that 
we would have to make sure gets assumed in the base budget to 
continue that effort. So that is the fundamental difference 
between those three numbers that you just listed.
    Ms. McSally. OK. So just for our bill that I have talked 
about at the beginning this should be clear. It includes the 
resources for the Border Wall System. Plus the access roads, 
plus 5,000 Border Patrol Agents, plus 5,000 CBP Officers for 
the ports of entry, plus the additional resources for a 
biometric entry-exit and the non-detected intrusion for the 
ports of entry.
    So we include all that for $38 billion?
    Ms. Grady. Correct.
    Ms. McSally. Is that going to be over the next 10 years 
enough for us to address this issue?
    Ms. Grady. Based on the estimates that we have developed 
consistent with the requirements that the Border Patrol has 
developed based on operational needs, that aligns with numbers 
that we are looking for, but I do want to make it clear that 
the Border Patrol Agents' salaries, as well as the statement of 
those capabilities would be recurring bills beyond that----
    Ms. McSally. Great, of course. Thank you.
    Deputy Commissioner Vitiello, so the Border Wall System, 
this is, you know, one that, it gets a lot of attention 
especially across the media and somehow has become somewhat 
polarized which I don't quite understand. You know, having been 
in my district just recently down in Naco and looking at where 
there is replacement fencing, that was all approved under the 
previous administration, as you know, lots of miles of 
replacement fencing and some additional barriers, wall, 
barriers approved under previous administrations.
    So this has been a consistent element of what the operators 
have asked for where appropriate in order to do impedance and 
denial. So in this request for the $18 billion, it is about 722 
miles, could you kind-of break that down for everybody and why 
the operators say that they need that as a part of a system 
that is going to actually secure the border?
    Mr. Vitiello. Thanks for that question.
    As you recall that the--as you mentioned, it was previously 
authorized in the Secure Fence Act for a number of miles on the 
Southwest Border, and it raised the standard in the law for 
operational control. That is a very high bar as it relates to 
what Border Patrol Agents are required to do in between the 
ports of entry at the immediate border. So to meet that 
standard we went to the field, we put them through a framework, 
we asked what problems that they have. We looked at the 
activity levels that they currently face.
    We looked at how active it is and what is within the 
threats of the arrests that they are making. We looked at 
suitability for impedance and denial. We looked at whether we 
can construct in certain locations because there are some 
terrain features that were just--it is not conducive to 
building or constructing. So those are all of the elements that 
we considered and asked the operators where they needed 
additional barriers. We are not just asking for impedance and 
denial.
    That is important enough, the barrier makes a difference, 
but we are asking for that situational awareness piece that is 
part of this request. So that is the cameras, that is the 
sensors, that is the lights. That we are also asking for access 
and mobility. We are looking for a rapid way to get to the 
border and lateral access while they are there on an area to 
patrol safely and in a convenient way.
    So access and mobility, impedance and denial, mission 
readiness, the additional hiring, having the agents on the 
ground, because it is vital for us to be successful and for 
them to be able to make those arrests. So those are all of the 
things that we are asking for, we are not just asking for a 
barrier, we are asking for that combination of things that 
makes the border safer.
    Ms. McSally. Great, thanks.
    One last quick question for this round. So there is 
concern, obviously it is a significant amount of resources that 
DHS is actually spending resources wisely and is making, you 
know, being good stewards of what we would provide to them, you 
know, should we be able to get this signed into law.
    I am concerned about this contract with a company to go out 
and recruit. It is great to see that the number of days have 
gone down, but nobody can wait 10 months still to get a job. So 
that needs to go, you know, to be shorter while you are still 
vetting people. But our major issue right now, both with the 
Border Patrol and at the ports of entry is retention.
    You have got these highly-trained and capable people, that 
they are working very hard under very difficult conditions, and 
they are leaving faster than we are gaining them. So isn't it 
better to invest those resources into retention programs right 
now to stop the bleeding as opposed to focusing on the 
recruiting?
    Ms. Grady. So, from our perspective we need to invest in 
both. We need to retain the high-quality individuals that are 
trained and at their full performance level, as well as 
continue to have and bring in and recruit new talent. So we 
have asked for a balance of the two, both in terms of 
recruiting efforts and retention and relocation incentives to 
use with our existing work force.
    I don't know if the chief has anything that he wants to add 
to that?
    Mr. Vitiello. Yes. I would just that that those, all of 
those elements are required. We have done a number of things, 
both on the OFO side and CBP Officers, and with Border Patrol. 
I think the most important thing that has been developed and is 
in practice now is the relocation program, where we sat with 
the union officials and agreed on a way forward that allows 
journeymen agents to move as journeymen agents to other parts 
of the border.
    We did the human capital study. You all have heard about 
the Federal Employee Viewpoint Survey. We looked deep into 
those numbers and found out that relocation is a driver for 
people who are leaving the organization. So we put a program 
together with you all's help, with the appropriate funding to 
be to move a certain percentage of the work force each and 
every year. So far that is paying off. We are seeing increased 
morale scores as it relates to those numbers and we are getting 
a lot of good comments on from the work force about their 
ability to go somewhere else and do their work in other 
locations.
    Ms. McSally. Great. I just want to note that our bill, the 
Securing America's Future Act actually provides also additional 
incentives and resources to retain professionals and also 
relocation bonuses for those who are serving in hard-to-serve 
areas. I think that is critically important. We do that in the 
military to try and help retain people with bonuses and things 
like that. We should be doing that all with you as well.
    All right, I am going to now yield to Ranking Member Vela.
    Mr. Vela. Would you say that the $18 billion requested by 
the Trump administration to build border walls over the next 10 
years is an accurate cost estimate?
    Ms. Grady. So at a high level that is an accurate estimate 
given everything that we know, and it is informed by our 
experience doing wall acquisition including real estate 
acquisition which you highlighted the challenges associated 
with that, so that, all of our experience informed that 
estimate.
    As we go forward and move on with each individual segment, 
we are doing a far more detailed cost estimate to manage the 
project for the individual segments. But at the high-level 
estimate it is--there is--we have confidence in the estimating 
accuracy, of the estimate for the $18 billion, for those miles.
    Mr. Vela. Yes. I guess this next question is really one for 
both you and for Chief Vitiello. It seems like on the issue of 
filling our officer shortage, it seems like we are spinning 
wheels because we were here 3 months ago and before that 
several times.
    You know, we passed that legislation with respect to the 
polygraph out of the House. It is stuck there for now. But I 
kind-of did my own investigation back home by talking to some 
of our local sheriff deputies and our sheriff's officers and 
chiefs of police. One of the issues that the common thread in 
all of those discussions was that potential applicants for the 
Border Patrol have a very difficult time leaving their home, 
right?
    So, for example, you are familiar Chief Vitiello with South 
Texas. If you have got a vacancy at the Kingsville or the 
Sarita Checkpoint and the valley is an hour away, it is very 
difficult to get those officers to move. So I am just 
wondering, what exactly are we doing going forward to getting 
to the point where we can fulfill those shortages?
    Mr. Vitiello. That is why we, I highlighted in my remarks 
the relocation program, giving people an opportunity to go 
either from Kingsville or back to the line, or from the line to 
the Northern Border, the Southern Border to the Northern 
Border. So that is going to make a difference. So, we have 
already seen the buzz amongst the work force. Then we are 
looking as this program elaborates itself we are looking at 
incentives for places that are harder to fill. We are looking 
at remote duty pay, like the Chairwoman expressed that is in 
that legislation.
    We are looking at ways for us to incent employees in 
locations that are more difficult to be at or that we need 
people to apply to.
    Mr. Vela. Yes. There just seemed simple human factors that 
are--that are involved in this, that broader systems may not 
ever really get to recognize this, what it seems to me like.
    Mr. Vitiello. Yes. We try to do stuff on the retention side 
of those incentives of pay and the relocations and those kinds 
of things, and then being able to target for recruits is also 
very important. We are beginning to understand the analytics of 
those who are applying and those who are being successful, and 
integrating that information into the materials that we use to 
recruit people.
    Mr. Vela. Now, Secretary Grady, late last year CBP awarded 
Accenture with a nearly $300 million contract to assist in 
recruiting additional CBP law enforcement personnel. Can you 
describe the role that your directorate played in the 
solicitation and source selection process?
    Ms. Grady. Absolutely. We did review the acquisition 
strategy and the solicitation and result in contract itself in 
terms of what they were--what CBP was looking to do, as well as 
having conversations. I had conversations directly with the 
acting commissioner about what they were pursuing.
    One of the challenges you heard the chief described is the 
high number of applicants we get per successful entry on duty. 
It is really important because it is a thorough and costly 
process to vet, go through medical, polygraph, and all the 12 
steps associated with the process to get to a successful on-
board. If we can target individuals who are more likely to be 
successful it will streamline the process and increase the cost 
effectiveness of being able to bring people on board.
    What Accenture brings to the process is the data analytics 
to help us target and also some proposed business process 
reengineering that ideally will shorten the length of time to 
bring somebody on board, 303 days is a great progress but it is 
not a reasonable time line and that is something we are 
targeting very hard to try and bring that down. So if there is 
a possibility of re-sequenced steps, provide applicant care 
throughout the process, all different ideas that we are seeking 
to learn from the experience with Accenture.
    The Accenture contract is in addition to on-going hiring 
efforts we have with our Federal employees and our normal H.R. 
offices. So we are hoping not just to be able to handle the 
surge hiring, but also to learn and better improve the process 
and apply those best practices across both Government and the 
use of Accenture.
    Mr. Vela. I thank all three of you for joining us.
    Did you want to answer?
    Mr. Vitiello. Yes. I would just like to add on that 
contract. You know, CBP, the Department writ large has enormous 
hiring challenges, specifically for the Border Patrol we have 
not yet gotten to a place where we can hire more than we are 
losing each and every year, and that has been that way for a 
couple of years. So we do have to try innovative things.
    I would just mention on the contract, there is a small 
operating cost that has been out-laid by the Government so far, 
the $400 million or the $297 million is at a ceiling. So if 
this works Accenture has the opportunity, we have an 
opportunity to use the contract up to that ceiling. But if this 
doesn't work, if it doesn't give us the results that we are 
expecting to get, then we will reinvest that potential ceiling 
in a different location.
    Ms. McSally. The Chair now recognizes Mr. Rutherford from 
Florida for 5 minutes.
    Mr. Rutherford. Thank you, Madam Chair.
    Commissioner Vitiello, the matrices that the GAO had asked 
about and I think you said that you are collecting some data--
and you are seeing come improvement in the collection of data, 
I guess, of different areas where you can show improvement 
based on building a wall, bringing in technology, those kinds 
of things. Where are you in that process exactly?
    Mr. Vitiello. You are right that we do--and Rebecca's 
comments reflect that, that we do collect a lot of data. What 
we have not been able to show this body, ourselves, and the 
public essentially is when we have made these investments we 
have seen a noticeable improvement, right. The border community 
is safer, we have less activity on the border, we face less 
threats. But to tie those conditions, the outcomes directly to 
the investments that were made is not something that we have 
been very good at in the past.
    A lot of help from oversight here, talking about 
situational awareness and what that means and how to measure 
it, and then the work that GAO does to help point out to us 
tying those investments directly too.
    So instead of just recording the apprehension and talking 
about the individual's record and, you know, doing a 
consequence on that, we also want to be able to credit whether 
we use an aircraft, whether we used a drone, whether that piece 
of technology assisted in that apprehension. So when you get 
better at that, we owe you and the public a better description 
of how these things contribute to overall security.
    So that is the work that is under way. We are trying to be 
methodical about it. We want to give you something that is 
credible, repeatable, and tells a story that is simple enough 
for us to explain without lots of charts and lots of graphs but 
a simple assessment of what the outcomes are brought using 
these investments.
    Mr. Rutherford. I just want to highlight the importance I 
think of that kind of data collection, because it not only 
shows the impact of what you are doing, but it can also be used 
to predict, and guide you in where you need to move forces.
    I am particularly talking about intelligence-led policing 
and how that concept of using data for deployment and then 
measurement of where things are going up, where things are 
going down can be of great importance to you I think. 
Particularly, and as you just mentioned, you know, giving us 
the story of where things are good and what you need to make 
that story better. So I want to encourage you to continue to 
move on that.
    Then looking at the technology side. You know, improvements 
at the points of entry, for example, through, you know, new 
iterations of ACAS or some of the new biometrics that are 
coming out for scanning that can improve--you know, when we 
went down and then the CODEL and when I saw a couple of these 
points of entry, I am like, oh my god, you know, what you guys 
are up against is incredible. Building more lanes is obviously 
not the answer.
    Well, some of it may be. But you also have to find better 
ways to screen these things. Can you tell me about any hope 
that you have in better screening at those points of entry?
    Mr. Vitiello. So, thanks for appreciating the work that the 
men and women do out there. It is a task that they are well-
suited for. So in the context of the ports what we have learned 
in CBP, one of the core competencies in CBP is targeting. So 
knowing what freight or what cargo, or who is coming to the 
port as they are arriving and having that advanced electronic 
information so that we can target a new selector data to say, 
OK, what is in this, is this a high-risk or a low-risk 
shipment, and then using that data and analysis of that data to 
target the ones that are likely to be a problem or a threat to 
security, so it starts with having that advanced information.
    Then you are right, in the request that is both in 2018 and 
2019 and in the larger border security improvement plan we talk 
about non-intrusive inspections investments. CBP has come to 
rely on these X-ray machines to do that exact--when you do 
target a tractor trailer and other vehicles you can put them 
through that system and you have a much faster way of being 
able to assess those images and move the commerce but target 
the bad guys as well.
    Mr. Rutherford. Right. Thank you very much.
    I have some other questions, but my time has expired, so I 
yield back.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mrs. Demings from Florida.
    Mrs. Demings. Thank you so much, Chairwoman McSally and 
thank you to our witnesses for being with us today.
    Commissioner Vitiello, is that correct? I served 27 years 
in law enforcement and had the honor of serving as a chief of 
police. I used to think a lot about the men and women who did 
the job. I realized that we could have all the goals in the 
world, all the technology and equipment, the fancy cars, the 
greatest weapons, but it was truly the men and women who made 
the difference on the ground.
    Could you take just a moment to kind-of talk about the men 
and women who work in your agency, and talk about how concerned 
you are about their safety and how important it is?
    Mr. Vitiello. Well, thank you for your service. I 
appreciate that opportunity. So it is the critical asset that 
CBP has. It is the men and women who get up each and every day 
with a heart of service to go out there and protect the border. 
They face threats that come up at a moment's notice.
    So you think about what happens in some of these cities 
along the border, people are fleeing violence and that kind of 
thing. You think about Border Patrol Agents out in the middle 
of nowhere cutting sign--responding to sensors, sometimes 
alone. So we are concerned about their safety. That is why when 
they deploy, this whole mission readiness idea that is part of 
what we are asking for is to give them the right equipment, the 
right tools and especially the right information, so that as 
they deploy they understand the threats that they are facing, 
and so that they are prepared both in their mindset and then at 
the equipment that they bring with them.
    Mrs. Demings. When we have heard from several of you--or 
all of you about the staffing, severe staffing shortages that 
you have. Ms. Gambler, I believe you said that you are losing 
more agents than you are able to hire, and Ms. Grady, I believe 
you mentioned that. All of you mentioned that.
    As you think about the men and women who work for you and 
how important it is to keep them safe, could you talk a little 
bit about how the staffing, severe staffing shortages, not just 
at the border but I would imagine all over, puts them at 
greater risk in terms of the job that they have to do every 
day?
    Mr. Vitiello. So, we do employ tools and try to automate 
some of the processes. You have seen some of this, like the 
biometric XEDIS is an application of advanced technology that 
may or may not accept--give us a chance to do the job more 
efficiently both on inbound entries and to the United States 
and certainly is applicable for outbound.
    The staffing on the--both sides on the Customs and Border 
Protection Officers we are actually ahead of attrition, so we 
are able to hire--they do have--we do have models in CBP that 
suggest that there are more investments required in that work 
force. So we use things like automation and overtime, and 
temporary duty staffing to address where the most critical 
needs for staffing are.
    But, yes, we are very concerned about that and we try to 
use those tools to minimize the impact on the individuals.
    Mrs. Demings. You have talked about streamlining your 
harrowing process somewhat, but I believe you mentioned, Ms. 
Gambler, about making it more attractive, that you are 
competing with local and State, other law enforcement agencies.
    So, as we look at doing more with less because we are all 
asked to do that and what our priorities are. As we talk about 
$18 billion in a border wall, yet we have severe staffing 
shortages, obviously we have not taken the steps to make the 
job of the agents and officers more competitive, would it not 
be a better use of the resources to make the job more 
attractive, more competitive, so you can continue to hire the 
best and brightest men and women dedicated to do that job as 
opposed to putting it in and spending $18 billion on a 
physical, another physical barrier. I don't know which one 
would be more appropriate to answer that question.
    Mr. Vitiello. I can start. I would suggest that we need to 
do all of it. I know, you know, it is kind-of typical for a 
bureaucracy who want to do everything but it needs to be 
balanced. We need improved conditions of security----
    Mrs. Demings. But wouldn't your men and women be your No. 1 
priority?
    Mr. Vitiello. They are on the list of amongst the things 
that we want to do right, it is personnel, and technology, and 
infrastructure. We want to be able to give that complete mix 
where it is needed most. So it is all three. Obviously the 
people are the most important thing about it. You can--you 
can--they can do all three of those things, right. They can 
cover for the technology, they can cover for the barriers but 
only the agents can make arrests and address criminal activity.
    Mrs. Demings. Any other?
    Ms. Gambler. I would----
    Mrs. Demings. Please go ahead.
    Ms. Gambler. Really quickly, if I could just ask from a 
good kind-of capital investment acquisition management 
perspective, it is important for an agency as they are defining 
what those--what their requirements are, so in this case what 
their requirements are for border security.
    It is important in a leading practice to think about what 
the different resources are that can meet that requirement and 
to think about what those alternatives are, that we are looking 
at the process that CBP has been going through as part of our 
current work and should be able to provide some insights on 
that later this year. But it is an important aspect of any type 
of investment to think about what your requirements are, and 
what is the right mix of things to meet that requirement.
    Mrs. Demings. Thank you, Chairwoman. I yield back.
    Ms. McSally. The gentlelady yields back.
    The Chair now recognizes Mr. Bacon for--where are you from, 
Nebraska, for 5 minutes?
    Mr. Bacon. Thank you.
    Ms. McSally. I knew that.
    Mr. Bacon. Thank you all for being here. I appreciate what 
you are doing and I appreciate the folks who are working every 
day to defend our border.
    First question for Mr. Vitiello, what is the progress for 
our Linear Ground Detection System, are we getting good results 
with what we are testing or what we are using?
    Mr. Vitiello. So thanks for that question. All of the new 
investments in the replacement walls that are being constructed 
now, that we have a project on-going in Calexico, all of the 
new installation will have this fiber-optic cable that will be 
installed along with the fencing. What that does is a number of 
things.
    It allows us to know when there is activity at the 
immediate border, it is a seismic sensor, that cable will alert 
the control center where the agents get dispatched from. It 
also is a way for us to recognize whether or not people could 
be digging near the infrastructure. So we are using it to good 
effect and we hope, based on the requests that we have made, as 
we install new wall that will be part of the initial lay-down. 
Not just that but other sensors as well. But it will part of 
all new installations.
    Mr. Bacon. I get asked this all the time back in the 
district, we have about a 2,000-mile border and we are buying a 
lot of these different technologies, we are trying to expand 
personnel, but out of that 2,000-mile border roughly, how much 
wall will you really need in the end? I need to be able to 
articulate this better back in the district.
    Mr. Vitiello. So there is about 654 miles of structure that 
are out there now. We are going to replace some of that because 
it is not--it is not useful anymore given its condition. So we 
are going to replace some of that and effectively another, 
almost double, more than double what is out there now in new 
installation will cover the areas of priority that have been 
identified by the border.
    Mr. Bacon. So we are looking at roughly 1,200 miles of wall 
or is that too much?
    Mr. Vitiello. It starts to get confusing because we are 
going to add to what we have now. We are going to use some 
secondary enforcement areas, and so, yes, I guess if you total 
it all up it would be in the 1,200 to 1,500 range.
    Mr. Bacon. OK. I think if we can narrow that down I think 
what it makes it easier is to talk to our public. There's a 
2,000-mile border, we don't need it everywhere but we want to 
focus it. It is actually a little more than I thought. You are 
giving us a little more than I thought we would need. I have 
been used to smaller numbers----
    Mr. Vitiello. So I have staff here that they are really 
smart on this. So there will be 316 miles of new pedestrian----
    Mr. Bacon. Three hundred sixteen new, OK. That is to go 
with the 654?
    Mr. Vitiello. This is in addition to what is there now.
    Mr. Bacon. OK. So I think that that helps. I can go back--
we are looking at building 316 more miles of wall out of that 
2,000.
    Mr. Vitiello. Right. Then another----
    Mr. Bacon. As a replacement.
    Mr. Vitiello. Right. Another 272 miles of that secondary 
barrier----
    Mr. Bacon. Secondary, got it. That is helpful. So in the 
military we also use lots of metrics when we decide what we are 
buying for new technology. Do you have a pretty good system for 
measuring metrics when you are trying to choose between systems 
that you can also use for Congress to say this is what we are 
picking, this over that?
    Mr. Vitiello. Yes. So that is part of what is required in 
the acquisition products that are required for us to get 
approval to move forward in some of these projects. We use 
things that I am not well-versed in but things like an analysis 
of alternatives so that we are getting the best value for the 
investments that we make and make tradeoffs for what is 
effective and then what will give us the outcomes we are 
expecting.
    Mr. Bacon. OK, good. Because it helps you to sell at least 
show why and convince Congress, you know, to support those 
programs when you have those good metrics.
    So you are asking for $1.6 billion for integrated fixed 
towers and remote video surveillance, will this give you a full 
range of video or will you have blind spots with that?
    Mr. Vitiello. The towers and the remote video 
surveillances, they are in use now, so again, there will be 
some of that that will need to be refreshed and replaced, and 
then there will be new additions to that capability.
    Mr. Bacon. Are there blind spots that you want to fill or 
where the blind spots are at you are all right?
    Mr. Vitiello. Given the technology, there will always be 
areas that will have to be covered by different kinds of 
technology, but this deployment will help us bring that 
situational awareness element that is a critical capability.
    Mr. Bacon. One last question, I am told that in some of our 
communications areas along the border there are gaps of 
coverage where you can't get, you know, like coverage for your 
communications, do we have--are we putting things in place to 
help the personnel on the border to make sure they have good 
comms up and down the whole border?
    Mr. Vitiello. So the request asks for specific investments 
in that area as well. Yes, that is a challenge, given the lack 
of infrastructure as it relates to communications backbone, the 
kinds of things that move signals back and forth. That has been 
a struggle for us for several years.
    Mr. Bacon. OK. Thank you very much. I yield back.
    Ms. McSally. The gentleman yields back.
    Just to note, votes will be called here in probably 10 
minutes we think. So the Chair now recognizes Mr. Correa from 
California. We are going to then have to break for votes and 
come back for our second panel.
    Mr. Correa, you are up.
    Mr. Correa. Thank you Madam Chair.
    I very quickly have some--Ms. Gambler, if I may? As I am 
listening to the conversation here I am thinking to myself we 
have a matrix to evaluate the investments, what part of border 
security actually has a highest yield. We are all talking about 
border security.
    I think there is a bigger picture here, at least from my 
humble perspective. I am out at California. I have been to the 
San Isidro crossing. The crossing it is by, in terms of volume 
people, trade, the biggest crossing in the world.
    Essentially, you know, about California, Mexico--
California's biggest trading partner is Mexico. Mexico is 
probably America's second- or third-largest trading partner in 
the world. So we have a lot of commerce. We do need more border 
crossings.
    I was down in San Isidro a few months ago and I was talking 
to some of those border agents. When I asked them about, you 
know, their job and they started telling me about these huge 
drug seizures that they actually had, you know, successful in 
grabbing. As I asked those agents, how did you do this? They 
smiled from one end to the other saying, you know, I have been 
here for 20 years I can spot a person that is guilty just by 
looking at them. Then once I spot one of these individuals I 
bring in the dogs and you know what, we score big.
    I am listening to this discussion here about the wall, 
investments, we have taxpayers in this country. We don't have a 
finite amount of resources, so do we have a matrix to measure 
where our investments are optimal?
    Top of that also, some of the comments that were made a 
little while ago that, you know, when you have shipments coming 
in you have to get clued, so to speak, as to which shipments 
are legit and which shipments may not be legit, meaning do we 
have cooperation with folks at Mexico, do we have cooperation 
intel with people from Canada?
    All of this put together, I am trying to figure out where 
do we get the most bang for the buck. Where do I go back to my 
taxpayers and say this is the most effective use of the 
taxpayer dollars to make sure we protect our kids from drugs.
    As, you know, according to your DHS report September, 2017 
the Southern Border is now at the hardest it has ever been in 
terms of crossing, the number of illegal entries is one of the 
lowest levels since the 1970's. So, you know, common sense here 
would tell you that people are going to start probing the 
Northern Border, the border in the north, as well as their 
ports of entry.
    Where do we get our best bang for the buck which comes back 
to, do we have essentially a matrix in place to gauge where we 
get our best bang for the buck?
    Ms. Gambler. Thank you for the question, Congressman. From 
the GAO perspective that is a very important line of inquiry.
    Based on our work DHS does not have metrics in place for 
assessing the contributions that these different investments 
are making to border security and we have open recommendations 
to the Department in that area as it relates to both, 
specifically to both technologies and infrastructure or 
barriers.
    Mr. Correa. So we don't know right now based on the data 
that we have where the best place is to invest our taxpayer 
dollars to protect our citizens?
    Ms. Gambler. That's right. DHS does not----
    Mr. Correa. The same question to Ms. Grady and Mr. 
Vitiello.
    Ms. Grady. Yes, sir. I think one of the things to 
differentiate is our ability to isolate the outcomes and 
attribute it to specific technology. We see the effects, we see 
the positive effects----
    Mr. Correa. But you don't have a matrix to measure that 
yet?
    Ms. Grady. To individual technologies, no we cannot----
    Mr. Correa. Not individual--how about individual 
investments like border versus drones, versus----
    Ms. Grady. We are--we are working----
    Mr. Correa. Training personnel?
    Ms. Grady. We are working to improve our data collection 
and the attribution which is what the chief had talked about.
    Mr. Correa. When we will have enough data to make 
intelligent decisions in terms of which area is best to invest 
our taxpayer dollars?
    Ms. Grady. We are working on completing that--completing 
the----
    Mr. Correa. When will we have that completed? Mr. Vitiello?
    Mr. Vitiello. I don't have a hard date for you and I know 
that is--been trying to prepare for----
    Mr. Correa. One month, 2 months, 6 months, 6 years?
    Mr. Vitiello. It is probably about a year or so out----
    Mr. Correa. But we are making decisions to invest now.
    Mr. Vitiello. Well we do have a body of experience about 
what we have done already. If I could, if we could put up chart 
No. 4, is that possible?
    We know over the history of CBP and the use of barriers 
along the border as it relates to wall and as it relates to the 
right mix of technology, infrastructure, and people, when we 
apply those investments in a strategic way along parts of the 
border we know that that is going to have a beneficial outcome. 
We are going to reduce activity. We are going to increase 
safety and then the public atmosphere in those locations along 
the border. So we do have experience with that.
    We agree with GAO and as the Department is commending us to 
do we are looking to give you a better history of what is 
happening and what has happened, and which of the--which of the 
investments are most appropriate. But I can tell you that if 
you don't do all three of these things in simultaneous fashion, 
that you will not be as successful----
    Mr. Correa. Madam Chair, I am out of time but I will just--
that is for the Southern Border, we don't know about the 
Northern Border, or the ports of entry.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Ms. Barragan from California for 5 
minutes.
    Mr. Barragan. Thank you, Madam Chairwoman.
    I want to thank all the witnesses for being here today. 
This week the President visited California. It was his first 
trip to the State, my State.
    The trip to California was designed to bring attention to 
the President's signature issue and campaign promise, the wall. 
During the overnight trip President Trump examined 8 recently 
constructed prototypes for a wall in San Diego near the U.S.-
Mexico border. The prototypes alone cost taxpayers between $2.4 
million and $4 million in addition to the $18 billion that the 
administration is asking us to spend.
    During the trip the President said that the wall would stop 
and I quote, ``99 percent of illegal entries across the border 
from Mexico,'' and characterized those who would try to cross 
the border as, ``professional mountain climbers,'' in his 
ability to scale barriers.
    Mr. Vitiello, would a wall prevent 99 percent of illegal 
entries at the border?
    Mr. Vitiello. Where we have the investment in a complete 
fashion, technology, infrastructure, mobility to the border we 
will be much more effective----
    Mr. Barragan. But there is no metrics to know it is 99 
percent, is that correct?
    Mr. Vitiello. We have a metric that we call the 
Interdiction Effectiveness Rate and what that does is it gives 
us a box score if you will about how many people enter and how 
many are caught, and where you have this infrastructure in a 
complete fashion. When we have a barrier, when you access to 
that barrier, when you have sensors that cue the response 
rates, it is when you have----
    Mr. Barragan. Are you--I am sorry, I have limited time----
    Mr. Vitiello. Response and resolution. You do have much 
higher effectiveness.
    Mr. Barragan. So, no, nobody on this panel, is anybody also 
on this panel can attest to 99 percent will actually be--of the 
illegal entries are going to be prevented?
    Mr. Vitiello. I didn't hear the quote directly, but there 
was a briefing that he was given by the chief patrol agent in 
San Diego, Rodney Scott which talked about the 99 percent 
decrease in activity in San Diego based on this investment and 
personnel technology and infrastructure, that was part of the 
brief. I had not heard what--directly.
    Mr. Barragan. OK. Thank you.
    Ms. Grady, do you, can you, do you believe that is going to 
stop the 99 percent and do you know what the source of that 
information would be?
    Ms. Grady. No I do not know the source of the information. 
I believe it is probably as Chief Vitiello indicated that the 
impact that we saw when we made the investments in San Diego, 
associated with what they saw and the positive impact of the 
combination of investments of resources and technology, 
infrastructure, and people.
    Mr. Barragan. OK. So we are still not getting to 99 
percent.
    Ms. Gambler, do you have any insight on this?
    Ms. Gambler. From the GAO perspective we aren't familiar 
with the source of that data. I would just add as I had 
mentioned in my oral remarks, we do have on-going work looking 
at DHS's plans for the wall system and we will be reporting the 
results of that work later this year.
    Mr. Barragan. Thank you. You know, I have been a Member of 
this committee for some like 14 months and it is amazing at how 
we hear from different people talk about a wall and what it 
would be effective for and what not. We see photos of tunnels 
going under walls, we see certainly contraptions being used to 
send drugs over a wall.
    You know, this is something where we are just dumping $18 
billion without metrics, it does not seem a good use of 
taxpayer dollars and making decisions without having the data. 
It has been a frightening pattern by this President who 
continuously makes false statements about border security and 
immigration to the American public to promote this central 
campaign promise on the wall. It is to the point where a senior 
ICE spokesman quit because of DHS's intent on spreading false 
information about undocumented immigrants escaping arrest in 
Oakland.
    You know more frightening is DHS's willingness to adopt the 
President's misguided views on border security and 
institutionalize them at a Federal agency charged with 
defending and protecting our country when the facts show 
otherwise.
    Mr. Vitiello, let me tell you I represent the Port of Los 
Angeles and I appreciate the work that your men and women do at 
the Port of Los Angeles. They tell me and we have been hearing 
from CBP that they need staffing. I am all for that, I am all 
for giving you the resources for the ports of entry, putting 
more money into where I believe there is a greater threat of 
National security and terrorism which are the airports and the 
seaports.
    So, know that I will continue to advocate for more funding 
at our ports of entries, especially at our seaports, because I 
have seen first-hand the work that your men and women do. I 
appreciate that, I have a much bigger issue with the wall, as 
you probably can tell today.
    So thank you all for being here. With that, my time has 
expired and we have to run to votes, I yield back.
    Ms. McSally. Thank you. The gentlewoman yields back.
    We are now going to go into recess. Unfortunately this is a 
long vote series, so I apologize to our second panel. This may 
be close to an hour, but we will be back for the second panel. 
I thank our witnesses for their testimony today. Additional 
questions could be submitted for the record. We are recessed.
    [Recess.]
    Ms. McSally. All right. The subcommittee will come to 
order. We are pleased to welcome our second panel of witnesses 
on this important topic. Mr. Brandon Judd is a Border Patrol 
Agent and president of the National Border Patrol Council 
representing more than 16,500 border line agents, brings with 
him nearly 20 years of experience as a Border Patrol Agent. Mr. 
Judd is currently a Border Patrol Agent assigned in Montana.
    Mr. Anthony Reardon is the national president of the 
National Treasury Employees Union. He is the leader of the 
largest independent Federal sector union representing a 150,000 
Federal workers including 25,000 CVP employees. Mr. Reardon has 
over 25 years of hands-on experience addressing the concerns of 
front-line employees.
    Thank you both for being here today. I appreciate your 
patience and your time. The Chair now recognizes Mr. Judd for 
his testimony.

STATEMENT OF BRANDON JUDD, NATIONAL PRESIDENT, NATIONAL BORDER 
                         PATROL COUNCIL

    Mr. Judd. Chairwoman McSally, Congresswoman Jackson Lee, I 
appreciate the opportunity to testify before you today. I would 
like to begin by explaining how we got to where we are today 
and why legislation drafted by the subcommittee and priorities 
proposed by the Trump administration, including within the 
border security improvement plan are desperately needed by the 
men and women of the Border Patrol to make up for the mistakes 
of the past.
    In the mid-1980's, the United States faced its first major 
illegal immigration crisis. The Border Patrol had 4,000 agents 
who were charged with patrolling roughly 2,000 miles of our 
international land border with Mexico.
    Other than barbed wire fences owned by ranchers, there were 
no vehicle or pedestrian barriers to impede illegal border 
crossers. The Border Patrol was overwhelmed and Congress chose 
to deal with the influx of illegal aliens entering the United 
States by passing the Immigration Reform and Control Act of 
1986.
    The act promised to secure the border and ensure the United 
States was never put in the same situation again. While 
promises were made, promises were not kept and simply put--the 
act failed.
    It failed in large part because the U.S. Government put the 
cart before the horse. Without first securing the border, the 
Federal Government legalized several million persons with--who 
willfully violated U.S. law. By so doing, we broadcasted a 
clear message to the world that our laws could be made void if 
enough people entered the country illegally. The message was 
heard world-wide and illegal immigration exploded.
    After the IRCA of 1986, illegal border crossings in high 
numbers took place almost exclusively in San Diego, California 
and El Paso, Texas. The Border Patrol thought if it could 
control these two corridors, they would be able to control 
illegal immigration and narcotics smuggling. They threw the 
vast majority of their resources at these areas, but left other 
areas like the El Centro, California, the Yuma, Arizona, and 
the Tucson, Arizona Border Patrol Sectors wide open.
    At the time, the prevailing thought was that the terrain 
and infrastructure and population density did not exist on 
either side of the border in these regions to allow smuggling 
organizations to move their operations to the inhospitable and 
barren desert areas of Arizona and California.
    The prevailing thought was wrong. For more than 10 years, 
the Tucson Border Patrol Sector was overrun because we did not 
have the foresight to realize smuggling is big, big business 
and that the cartels are extremely flexible and adaptable.
    In essence, we created the problem in Tucson by securing 
only select portions of the border while leaving others to the 
east and west, wide open. To this day, the citizens and 
ranchers of Arizona are still paying for our mistakes.
    Unlike today, in the 1980's and 1990's, ISIS didn't exist; 
criminal cartels didn't control every facet of illegal activity 
on the border, and transnational gangs weren't prevalent in the 
United States. Today, however, this is our reality, and if we 
refuse to learn from failed border security policies and 
operations of the past, we will never secure the border. We 
must take a proactive approach, and it must start with a proper 
mix of infrastructure, personnel, and technology, and it must 
be holistic.
    As an agent who has extensive experience working with and 
without border barriers, and as the person elected to represent 
rank-and-file Border Patrol Agents Nation-wide, I can 
personally attest to how effective physical barriers are. A 
wall in strategic locations will ultimately lead to far greater 
effectiveness and allow us to direct our very limited manpower 
resources to areas without barriers and where illegal crossings 
are more likely to take place.
    I implore the subcommittee, as well as CBP, to follow 
through with these proposed investments and actually build 
walls in strategic locations. Regardless of the amount of 
funding being appropriated to CBP for tactical infrastructure 
or emerging technologies being deployed to the border, the fact 
remains that the most crucial asset that the Border Patrol has 
is its agents.
    The men and women of the Border Patrol are some of the 
finest law enforcement professionals in the world but 
unfortunately we are losing agents faster than we can hire. I 
want to thank the subcommittee for your on-going efforts to 
solve the personnel problems plaguing the Border Patrol, 
including the hiring of 5,000 additional agents.
    While new recruitment efforts are certainly necessary and 
crucial going forward, I am deeply concerned that CBP 
leadership is continuing to ignore our persistent agent 
retention problems and the detrimental impacts to budgeting, 
morale, and border security that stem from these sustained 
attrition rates.
    I am also concerned that the agency is once again putting 
the cart before the horse and spending hundreds of millions of 
dollars without addressing CBP's underlying personnel issues. 
We must fix our retention problems first. Then, we can address 
recruitment issues once the Border Patrol stops hemorrhaging 
agents.
    I applaud both this subcommittee and the Trump 
administration for the comprehensive policies and initiatives 
that each have put forth. Going forward, it is crucial that we 
acknowledge that if we only build parts of the wall and try to 
simply shut down down just the Rio Grande Valley, for example, 
without also addressing Laredo, Del Rio, and Big Bend, we will 
create the same types of holes in our defenses that we created 
in Arizona years ago. We cannot repeat the mistakes of the 
past.
    Again, I thank you for this opportunity and I look forward 
to answering any of your questions.
    [The prepared statement of Mr. Judd follows:]
                   Prepared Statement of Brandon Judd
                             March 15, 2018
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, I would like to thank you for inviting me to 
testify before you today in order to communicate how the 
administration's request to Congress for enhanced border security 
measures and increased resources will dramatically improve border 
security efforts and greatly help our Nation's Border Patrol Agents to 
do our jobs.
    My name is Brandon Judd and I currently serve as the president of 
the National Border Patrol Council, where I represent approximately 
16,000 Border Patrol field agents and support staff. I have 20 years of 
experience as a Border Patrol Agent and a thorough understanding of the 
policies affecting border security.
                     lessons learned from the past
    I'd like to begin by explaining how we got to where we are today 
and why legislation drafted by the subcommittee and priorities proposed 
by the Trump administration, including within the Border Security 
Improvement Plan (BSIP), are desperately needed by the men and women of 
the Border Patrol to make up for the mistakes of the past.
    In the mid-1980's, the United States faced its first major illegal 
immigration crisis. The Border Patrol had 4,000 agents who were charged 
with patrolling the roughly 2,000 miles of our international land 
border with Mexico. Other than barbed wire fences owned by ranchers, 
there were no vehicle or pedestrian barriers to impede illegal border 
crossers. The Border Patrol was overwhelmed and Congress chose to deal 
with the influx of illegal aliens entering the United States by passing 
the Immigration Reform and Control Act (IRCA) of 1986. The Act promised 
to secure the border and ensure the United States was never put in the 
same situation again.
    While promises were made, promises were not kept and simply put: 
The Act failed.
    It failed in large part because the U.S. Government put the cart 
before the horse. Without first securing the border, the Federal 
Government legalized several million persons who willfully violated 
U.S. law. By so doing, we broadcasted a clear message to the world that 
our laws could be made void if enough people enter the country 
illegally. The message was heard world-wide and illegal immigration 
exploded.
    After the IRCA of 1986, illegal border crossings in high numbers 
took place almost exclusively in San Diego, California and El Paso, 
Texas. The Border Patrol thought if it could control these two 
corridors, they would be able to control illegal immigration and 
narcotics smuggling. They threw the vast majority of their resources at 
these areas but left other areas like the El Centro, California; the 
Yuma, Arizona; and the Tucson, Arizona Border Patrol Sectors wide open. 
At the time, the prevailing thought was that the terrain, 
infrastructure, and population density did not exist on either side of 
the border in these regions to allow smuggling organizations to move 
their operations to the inhospitable and barren desert areas of Arizona 
and California.
    The prevailing thought was wrong. For more than 10 years, the 
Tucson Border Patrol Sector was overrun because we did not have the 
foresight to realize smuggling is big business and that the cartels are 
extremely flexible and adaptable. In essence, we created the problem in 
Tucson by securing only select portions of the border while leaving 
others, to the east and west, wide open. To this day, the citizens and 
ranchers of Arizona are still paying for our mistakes.
    Unlike today, in the 1980's and '90's, ISIS didn't exist, criminal 
cartels didn't control every facet of illegal activity on the border, 
and transnational gangs weren't prevalent in the United States. Today, 
however, this is our reality, and if we refuse to learn from failed 
border security policies and operations of the past, we will never 
secure the border. We must take a proactive approach and it must start 
with the proper mix of infrastructure, personnel, and technology and it 
must be holistic.
    I applaud both this subcommittee and the Trump administration for 
the comprehensive policies and initiatives that each have put forth. 
Going forward, it is crucial we acknowledge that if we only build parts 
of the wall and try to simply shutdown down just the Rio Grande Valley 
(RGV), for example, without also addressing Laredo, Del Rio, and Big 
Bend, we will create the same types of holes in our defenses that we 
created in Arizona years ago. We cannot repeat the mistakes of the 
past.
  physical barriers, including walls in strategic locations, must be 
                         built along the border
    While there has been no shortage of debate and controversy over our 
physical defenses and the proposed border wall, in my opinion serving 
in the Border Patrol for the past 20 years, including in two of the 
busiest sectors in the history of the Border Patrol, a wall in 
strategic locations is pivotal to securing our border.
    When I first arrived in the El Centro Sector in the late 1990's and 
later in the Tucson Sector in the early 2000's, we had next to nothing 
by way of infrastructure and I can confidently say that for every 
illegal border crosser that I apprehended, three got away. The building 
of physical barriers and large fences--an effort that received 
bipartisan support in years past--allowed agents to dictate where 
illegal crossings took place, and doubled how effective we were able to 
be in apprehending illegal border crossers.
    As an agent who has extensive experience working with and without 
border barriers, and as the person elected to represent rank-and-file 
Border Patrol Agents Nation-wide, I can personally attest to how 
effective physical barriers are. A wall in strategic locations will 
ultimately lead to far greater effectiveness and allow us to direct our 
very limited manpower resources to areas without barriers and where 
illegal crossings are more likely to take place.
    I applaud the subcommittee for proposing and pushing for historic 
investments in tactical infrastructure, including physical barriers. I 
implore the subcommittee, as well as CBP, to follow through with these 
proposed investments and actually build the wall in strategic 
locations. While repairing, replacing, and constructing new tactical 
infrastructure, including a wall along our Southwest Border is critical 
to achieving true border security, physical barriers make up only one 
part of the border security solution.
   personnel shortages and retention problems must be solved before 
                            recruitment push
    Regardless of the amount of funding being appropriated to CBP for 
tactical infrastructure or emerging technologies being deployed on the 
border, the fact remains that the most crucial asset that the Border 
Patrol has are its agents. The men and women of the Border Patrol are 
some of the finest law enforcement professionals in the world but 
unfortunately we're losing agents faster than we can hire them. Just 
this past November, the Government Accountability Office (GAO) reported 
that according to CBP, ``from fiscal year 2013 to fiscal year 2016, 
Border Patrol hired an average of 523 agents per year while 
experiencing a loss of an average of 904 agents per year.'' With agent 
attrition rates far outpacing hiring year in and year out, the Border 
Patrol has found itself with a critical shortage of agents in the 
field.
    Congress has previously mandated that the Border Patrol maintain a 
minimum staffing number of 21,370 agent positions. However, due to the 
steady pace of attrition, the Border Patrol currently has only 
approximately 19,300 agents. This is roughly 2,000 agents short of 
where Congress has said the agency's staffing level needs to be and is 
simply unacceptable. In large part, agents are leaving the Border 
Patrol for other Federal law enforcement jobs. Based on information 
provided by CBP leadership itself, GAO's November 2017 report 
summarizes the key reasons why agents are leaving the Border Patrol for 
other agencies and states that, ``Border Patrol Agents are deployed to 
less desirable duty locations, and Border Patrol Agents generally 
receive lower compensation.''
    This pay disparity issue dates back to December 2014 when former 
President Obama signed into law the Border Patrol Agent Pay Reform Act 
(BPAPRA). This legislation overhauled the overtime system that agents 
had used for over 40 years. While initial drafts of the legislation 
were revenue neutral, during the legislative process, the Obama 
administration pushed Congress to cut roughly $100 million per year 
over 10 years from agents' salaries. As a result, rank-and-file Border 
Patrol Agents took a significant pay cut of roughly $5,500 per agent 
per year. It is of note that the same high-level managers who were 
tasked with working with Congress on the BPAPRA took no pay cut. While 
NBPC ultimately supported the final bill because the Obama 
administration had already begun limiting agent pay through other 
administrative means, we believe that this pay cut has seriously 
exacerbated attrition rates across the Border Patrol and hope that 
Congress can help remedy this problem.
    I want to thank the subcommittee for your on-going efforts to solve 
the personnel problems plaguing the Border Patrol. Specifically, I 
commend the subcommittee for including key personnel related provisions 
such as retention incentive language, and the Anti-Border Corruption 
Reauthorization Act in H.R. 4760, Securing America's Future Act. I also 
want to commend the subcommittee for authorizing the hiring of 5,000 
additional agents in the Securing America's Future Act, putting the 
minimum agent position number at 26,370. This legislative language 
mirrors the administration's plan to hire 5,000 agents as outlined in 
both Executive Order 13767 and CBP's BSIP. The NBPC fully supports the 
plan to hire 5,000 additional agents and thanks the subcommittee and 
the administration for this much-needed hiring surge.
    While new recruitment efforts are certainly necessary and crucial 
going forward, I am deeply concerned that CBP leadership is continuing 
to ignore our persistent agent retention problems and the detrimental 
impacts to budgeting, morale, and border security that stem from these 
sustained attrition rates. As the subcommittee is aware, in November of 
last year, CBP awarded Accenture Federal Services a contract to recruit 
and hire additional CBP personnel, including 5,000 Border Patrol 
Agents. CBP has obligated over $42 million for the first year of the 
contract and the total value of the 5-year contract could reach as high 
as approximately $297 million.
    With news of this contract award, I am deeply concerned that the 
agency is once again putting the cart before the horse and spending 
hundreds of millions of dollars without addressing CBP's underlying 
personnel issues. We must fix our retention problems first. Then we can 
address recruitment issues once the agency stops hemorrhaging agents. 
If we don't address why agents are leaving the agency, then we will 
forever be stuck in a cycle in which the agency, and thereby taxpayers, 
loses tens of millions of dollars every year and never actually solves 
the root problem.
    Based on only the limited information available regarding this 
contract, I am afraid that this contract award is at best a gross waste 
of taxpayer dollars and worse yet, likely mismanagement at the highest 
levels of CBP. I urge the subcommittee to continue its oversight of 
this contract award and related decision making by CBP to ensure that 
some light is shed on these matters.
                               conclusion
    As I stated above, I implore the subcommittee, as well as CBP, to 
follow through with the proposed investments contained within the 
Securing America's Future Act and the BSIP. This means building a wall 
in strategic locations and putting more boots on the ground. However, I 
urge the subcommittee to remain vigilant with its oversight of the 
agency as CBP prepares to spend upwards of $30 billion in proposed 
funding. If the $300 million Accenture recruitment contract is any 
indication of future CBP decision making, I remain seriously concerned 
about how CBP leadership will choose to spend approximately 100 times 
more in taxpayer funding.
    Last, I implore both sides of the aisle to quit politicizing border 
security and illegal border entries, and work with the men and women of 
the Border Patrol to invest in and ensure we have the infrastructure, 
personnel resources, and technology we need. By so doing, I have no 
doubt in my mind that Border Patrol Agents will once and for all secure 
the border.

    Ms. McSally. Thank you, Mr. Judd.
    The Chair now recognizes Mr. Reardon for 5 minutes.

 STATEMENT OF ANTHONY M. REARDON, NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Reardon. Good afternoon. Chairwoman McSally, 
Congresswoman Jackson Lee, thank you for the opportunity to 
again testify on behalf of over 25,000 front-line Customs and 
Border Protection Officers, Agriculture Specialists, and Trade 
Enforcement Specialists at CBP who are stationed 328 U.S. air, 
sea, and land ports of entry and at preclearance operations 
overseas.
    As I told the subcommittee in January, the border security 
issues of utmost concern to CBP OFO employees are the hiring 
and funding challenges that contribute to ports of entry being 
chronically understaffed.
    In my testimony, I told you about excessive overtime 
requirements, temporary duty assignments to the Southwest 
border ports, challenges to hiring, and the impact of staffing 
shortages on officer safety and morale.
    To address the concerns NTEU raised at the January hearing, 
Ranking Member Vela and others introduced a bill, H.R. 4940, 
the Border and Port Security Act, a bipartisan bill that would 
authorize the hiring of 500 additional CBP Officers and other 
Office of Field Operations staff annually until the staffing 
gaps in CBP's various workload staffing models are met.
    NTEU strongly supports this stand-alone CBP Officer 
staffing bill and we urge every Member of Congress to support 
this bill, too.
    I am here today to convey NTEU's concerns with CBP's $33 
billion proposal to fund critical CBP requirements to improve 
border security. There is no greater roadblock to border 
security, stopping illicit trafficking in people, drugs, 
illegal weapons, and money and to ensuring legitimate trade and 
travel efficiency then the lack of sufficient staff at our 
ports. The current CBP Officer shortage is staggering.
    There is a vacancy rate of 1,145 funded CBP Officers at the 
ports. According to CBP an additional 2,516 CBP Officers need 
to be hired and funded in order to meet 2018 staffing needs. So 
as of today, there is a total CBP Officer staffing shortage of 
3,651.
    Unfortunately, I have learned that the $33 billion funding 
proposal to improve border security includes no appropriated 
funding to address the No. 1 security issue at the 328 U.S. 
ports of entry. That is the current staffing shortage of 
approximately 3,600 positions.
    When discussing what do we get for $33 billion, the topic 
of this hearing, it is important to note the funding document 
sets forth $1.6 billion to fund 2,516 CBP Officers. But the 
source of this funding appears to be an increase in the 
immigration and COBRA user fees and not a direct up-front 
appropriation from this $33 billion pot of money.
    These user fees cannot be increased without Congress 
enacting legislation. A proposal to increase user fees has been 
a part of the administration's budget submission since fiscal 
year 2014 to fund the hiring of new CBP Officers.
    This user fee increase proposal is again in the fiscal year 
2019 budget request, even though the committees with 
jurisdiction have never shown any interest or even held a 
hearing to discuss this legislative proposal.
    I am reluctantly coming to the conclusion that there is no 
serious effort by Congress at this time to fund the hiring of 
critically needed CBP Officers in the fiscal year 2019 budget 
or the $33 billion border security funding proposal.
    The CBP Officers and other employees I represent are 
frustrated that Congress does not seemingly recognize that 
securing the ports of entry is just as vital to border security 
as is securing the borders between the ports of entry, and the 
ports are an economic driver to the U.S. economy.
    It is imperative that Congress fund with appropriated 
dollars CBP Officer new hires to alleviate the on-going CBP 
staffing shortages at the ports of entry so that we realize 
real border security.
    Thank you, and I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Reardon follows:]
                Prepared Statement of Anthony M. Reardon
                             March 15, 2018
    Chairwoman McSally, Ranking Member Vela, distinguished Members of 
the subcommittee, thank you for the opportunity to deliver this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 25,000 
Customs and Border Protection (CBP) Officers, Agriculture Specialists, 
and Trade Enforcement Personnel stationed at 328 land, sea, and air 
ports of entry across the United States and 16 Preclearance stations 
currently in Ireland, the Caribbean, Canada, and United Arab Emirates 
airports. CBP's Office of Field Operations (OFO) pursues a dual mission 
of safeguarding American ports, by protecting the public from dangerous 
people and materials, while enhancing the Nation's global and economic 
competitiveness by enabling legitimate trade and travel.
    In addition to CBP's trade and travel security, processing and 
facilitation mission, CBP OFO employees at the ports of entry are the 
second-largest source of revenue collection for the U.S. Government. In 
2016, CBP processed more than $2.2 trillion in imports and collected 
more than $44 billion in duties, taxes, and other fees. Thank you for 
this opportunity to discuss how CBP proposes to allocate $33 billion to 
fund ``Critical CBP Requirements to Improve Border Security.''
    As I told the subcommittee in January when I last testified, the 
border security issues of utmost concern to CBP OFO employees are the 
hiring and funding challenges that contribute to ports of entry being 
chronically understaffed. In that testimony, I shared with the 
committee concerns about excessive overtime requirements, temporary 
duty assignments to the Southwest border ports, challenges to hiring, 
the impact of staffing shortages on officer safety and morale, among 
other issues.
    To address the concerns NTEU raised at the January hearing, Ranking 
Member Vela and other legislators introduced a bill, H.R. 4940, the 
Border and Port Security Act. This bipartisan legislation would 
authorize the hiring of 500 additional CBP Officers and other OFO staff 
annually until the staffing gaps in CBP's various Workload Staffing 
Models are met. NTEU strongly supports this standalone CBP Officer 
staffing bill and urges every Member of Congress to support this bill.
    I am here today to convey NTEU's concerns with CBP's $33 billion 
proposal to fund critical requirements to improve border security. It 
is my understanding that Congress is considering CBP's $33 billion 
funding proposal to implement the Border Security Improvement Plan 
(BSIP) that was developed pursuant to language in the Fiscal Year 2017 
DHS Appropriations Act (Pub. L. 115-31) to provide ``a risk-based plan 
for improving security along the borders, including personnel, fencing, 
and other forms of tactical infrastructure, and technology.''
    Unfortunately, I have learned that neither the $33 billion funding 
proposal nor the BSIP addresses the No. 1 security issue at the 328 
U.S. ports of entry and that is a current staffing shortage of over 
3,600 positions. Understaffed ports lead to long delays in travel and 
cargo lanes and also create significant hardship and safety issues for 
front-line employees. Involuntary overtime and involuntary work 
assignments far from home disrupt CBP Officers' family life and destroy 
morale.
    There is an existing vacancy rate of nearly 1,145 funded CBP 
Officers at the ports and, according to CBP's analytic workload 
staffing model, an additional 2,516 CBP Officers and 731 Agriculture 
Specialists need to be funded and hired in order to meet 2018 staffing 
needs (see attachment.) With the existing vacancy of 1,145 funded CBP 
Officers, this adds up to a total CBP Officer staffing shortage of 
3,645 today.
    For example, the Tucson Field Office is currently experiencing 
critical shortages of front-line personnel. According to CBP, ``these 
long-term staffing shortfalls continue to stretch the limits of 
operational, enforcement, and training capabilities at the ports of 
entry. In support of this, Headquarters is soliciting 175 CBP Non-
Supervisory Officers to serve in a Temporary Duty (TDY) capacity to 
support the Tucson Field Office beginning January 7, 2018''.
    In my January testimony, I told you about how CBP Officers at the 
critically short-staffed Southwest Border ports are drafted for 
excessive overtime hours. All CBP Officers are aware that overtime 
assignments are an aspect of their jobs. I also shared the story of an 
Officer who performed 73 hours of overtime at his port during one 80-
hour pay period. Long periods of overtime hours can severely disrupt an 
officer's family life, morale, and ultimately their job performance 
protecting our Nation.
    Despite the demonstrated CBP Officer staffing needs, it is my 
understanding that the BSIP seeks the addition of only 63 CBP Officer 
new hires at the National Targeting Center, but no additional officers 
to address front-line staffing shortages at the ports of entry. 
Apparently, the BSIP proposes that Congress make other monetary 
investments in OFO facilities, equipment, and technology initiatives 
such as biometric entry-exit and Non-Intrusive Inspection acquisitions, 
but none of these new investments include funding for additional CBP 
personnel actually responsible for inspection, interdiction, and 
facilitation of trade and travel at the ports.
    The more than 25,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports. However, front-line CBP Officers 
and Agriculture Specialists at our Nation's ports of entry need relief, 
and yet the $33 billion funding proposal to improve border security 
provides none.
    The economic cost of the CBP OFO staffing shortage is staggering. 
CBP employees at the ports of entry are not only the front line for 
illegal trade and travel enforcement, but their role of facilitating 
legal trade and travel is a significant economic driver for private-
sector jobs and economic growth. According to CBP fiscal year 2013 
data, for every 1,000 CBP Officers hired there is an increase in the 
Gross Domestic Product (GDP) of $2 billion; $642 million in opportunity 
costs are saved (the quantification of time that a traveler could be 
using for other purposes than waiting in line, such as working or 
enjoying leisure activities); and 33,148 jobs are added annually. For 
every 33 additional CBP Officers hired, the United States can 
potentially gain over 1,000 private-sector jobs. If Congress fully 
staffed the ports with the needed 3,700 additional CBP Officers, 
112,000 private-sector jobs could be created.
    It is my understanding that the scientifically-developed CBP 
Workload Staffing Model was not even referenced in the BSIP. In order 
to address port security Nation-wide, it is essential that Congress 
utilize the CBP Officer Workload Staffing Model that shows a staffing 
shortage of 2,516 CBP Officers and 721 Agriculture Specialists at the 
ports of entry (not including the 1,145 current CBP Officer vacancies), 
in making staffing and funding decisions.
    It is well-known that as we increase staffing between the ports of 
entry more criminals, terrorists, drug and human smugglers are funneled 
into the ports of entry further exacerbating the current staffing 
crisis at the ports. The risk of successful incursions through the 
ports of entry by terrorists, smugglers, and other criminals increase 
when ports are under constant pressure to limit wait times while 
working short-staffed. If port traffic increases significantly due to 
squeezing illegal activity there, it will become impossible for CBP 
Officers and Agriculture Specialists to stop bad actors and bad things 
from coming through the ports without significantly increasing wait 
times, which will harm legal international trade and travel. Congress 
needs to fund CBP hiring up to the level specified in CBP's OFO 
workload staffing model in order to address existing trade and travel 
traffic.
    According to the Joint Economic Committee (JEC), every day 1.1 
million people and $5.9 billion in goods legally enter and exit through 
the ports of entry. The volume of commerce crossing our borders has 
more than tripled in the past 25 years. Long wait times lead to delays 
and travel time uncertainty, which can increase supply chain and 
transportation costs. According to the Department of Commerce, border 
delays result in losses to output, wages, jobs, and tax revenue due to 
decreases in spending by companies, suppliers, and consumers. JEC 
research finds border delays cost the U.S. economy between $90 million 
and $5.8 billion each year.
    When discussing ``what do we get for $33 billion''--the topic of 
this hearing, it is important to note the funding document does set 
forth $1.6 billion to fund 2,516 CBP Officers over 5 years, but the 
source of this funding appears to be an increase in the Immigration and 
Consolidated Omnibus Budget Reconciliation Act of 1985 (COBRA) user 
fees and not a direct up-front appropriation from this $33 billion pot.
    These user fees cannot be increased without enacting legislation. 
This proposal to increase these user fees have been part of the 
administration's budget submission since fiscal year 2014 to fund the 
hiring of new CBP Officers to meet the workload staffing model's 
staffing gap. This user fee increase proposal is again in the fiscal 
year 2019 budget request, even though the committees with jurisdiction 
have never shown any interest or even held a hearing to discuss this 
legislative proposal. I am reluctantly coming to the conclusion that 
there is no serious effort by Congress at this time to fund the hiring 
of critically needed CBP Officers in either the fiscal year 2019 budget 
or the $33 billion border security funding proposal, which will result 
in on-going border security gaps.
    CBP employees also perform critically important agriculture 
inspections to prevent the entry of animal and plant pests or diseases 
at ports of entry. The U.S. agriculture sector is a crucial component 
to America's economy generating over $1 trillion in annual economic 
activity. According to the U.S. Department of Agriculture, foreign 
pests and diseases cost the American economy tens of billions of 
dollars annually. For years, NTEU has championed the CBP Agriculture 
Specialists' Agriculture Quality Inspection (AQI) mission within the 
agency is critical to U.S. economic security and NTEU has fought for 
increased staffing to fulfill that mission, yet CBP's agriculture 
security is apparently not discussed in either the BSIP or the $33 
billion funding proposal.
    CBP's Agriculture Resource Allocation Model (AgRAM) shows a need 
for an additional 721 front-line CBP Agriculture Specialists and 
supervisors to address current workloads through fiscal year 2018; 
however, the fiscal year 2019 budget proposal and the BSIP provides no 
additional funding to raise the total number of Agriculture Specialist 
positions to 3,149 as called for by the AgRAM.
    Because of CBP's key mission to protect the Nation's agriculture 
from pests and disease, NTEU urges the committee to include the hiring 
of these 731 CBP Agriculture Specialists to address this critical 
staffing shortage that threatens the U.S. agriculture sector in the $33 
billion funding proposal.
    The CBP Canine Program is also critical to CBP's mission. The 
primary goal of the CBP Canine Program is terrorist detection and 
apprehension. The working CBP canine team is one of the best tools 
available to detect and apprehend persons attempting entry into the 
country to organize, incite, and carry out acts of terrorism. The 
Canine Program's secondary goal is detection and seizure of controlled 
substances and other contraband, often used to finance terrorist and/or 
criminal drug trafficking organizations.
    Currently, there are 1,500 authorized canine teams but, as with all 
CBP resources, there is a shortage of canine teams at the ports of 
entry. At JFK international airport, NTEU has learned that there are 
only 4 OFO canine teams assigned there. Many dog teams at international 
airports have been sent to Southwest Border ports to alleviate 
shortages there. At one Southwest Border port, NTEU was told that the 
port only has 24 of the 38 authorized canine teams. By CBP's own 
allocation, this port is short 14 dogs and handlers. There is no 
funding in the $33 billion funding proposal to add any new canine 
detection teams at the ports of entry. NTEU urges Congress to include 
the funding to add additional OFO dog teams to the $33 billion package.
    CBP plays a major role in addressing the Nation's opioid epidemic--
a crisis that is getting worse. Since 2014, we have seen an escalation 
of deadly synthetic drug usage, specifically fentanyl, in the United 
States. The majority of fentanyl is manufactured in other countries 
such as China, and is smuggled primarily through the international mail 
and express consignment carrier facilities (e.g. FedEx and UPS) and 
through ports of entry along the Southwest Border.
    Due to the on-going OFO staffing shortages, CBP Officer numbers at 
Express consignment hubs are extremely low. For example, at the FedEx 
hub in Memphis there are 38 million imports and 48 million exports 
equaling 86 million in total package volume for the past year. There 
are approximately 24 CBP Officers screening all 86 million of these 
shipments, and on average, about 15 CBP Officers on the main overnight 
FedEx ``sort'' shift.
    Considering the volume at the FedEx hub, the port requires a 
minimum of 60 CBP Officers to increase the legitimate flow of freight 
and ensure successful interdiction of these Chinese chemicals. NTEU 
does commend CBP Memphis for outfitting a new 2-person chemical team 
with laser equipment that can detect dangerous synthetic drugs thereby 
reducing the number of dangerous chemical shipments that the CBP 
Officers must handle. However, these dangerous chemicals are still 
handled nightly by CBP Officers.
    The scourge of synthetic opioid addiction is felt in every State 
and is a threat to the Nation's economic security and well-being, yet 
there is no funding in this $33 billion package to increase CBP Officer 
staffing at the Express consignment hubs or the ports of entry where 
synthetic opioids are entering the country.
                    fiscal year 2019 budget request
    The administration recently released its fiscal year 2019 budget 
submission to Congress. The budget requests $47.5 billion in DHS 
discretionary budget authority. The DHS budget request would raise 
spending levels enacted in the fiscal 2017 omnibus law by $3.6 billion, 
an 8.5 percent increase.
    The fiscal year 2019 DHS budget request provides $14.2 billion in 
discretionary budget authority for CBP of which $211 million is 
requested to hire and support an additional 750 Border Patrol Agents 
and support personnel.
    There is no new appropriated funding request to hire additional CBP 
Officers at the ports of entry other than 63 new CBP Officer positions 
at the National Targeting Center. The administration is requesting that 
Congress pass legislation to raise the COBRA user fee by $2.75 and the 
Immigration User fee by $2 to support the hiring of new Customs and 
Border Protection Officers.
    As noted earlier in this testimony, these user fee increases have 
been proposed in every budget request since fiscal year 2014 and 
Congress has not taken any action to increase the COBRA user fee to 
fund the hiring of new CBP Officers.
    Additionally, the administration is calling for a Government-wide 
pay freeze for all Federal civilian employees for calendar year 2019. 
NTEU strongly opposes a pay freeze proposal for all Federal employees, 
including for DHS and CBP, which have already struggled to recruit and 
retain law enforcement officers in recent years, and which comes amidst 
the backup of planned private-sector average 3 percent pay increases in 
2018.
    As Congress finalizes fiscal year 2018 funding in the next few 
weeks, and begins consideration of fiscal year 2019 funding for CBP, 
committee Members should authorize $1.6 billion in direct 
appropriations to meet the CBP Officer and CBP Agriculture Specialist 
staffing requirements through fiscal year 2018 and 2019, as stipulated 
in CBP's own Workload Staffing Model and to oppose a calendar year 2019 
pay freeze.
    A funding proposal of concern to NTEU is a $297 million contract 
that CBP recently awarded to Accenture Federal Services ``to manage the 
full life cycle of the hiring process from job posting to processing'' 
of 7,500 CBP Border Patrol, Air and Marine, and OFO new hires. NTEU has 
seen reports that the 5-year contract cost is approximately $39,600 per 
hire--nearly the same as the starting salary of a CBP Officer. NTEU 
strongly believes that these Federal funds would be better spent 
actually hiring new CBP employees using CBP's in-house human resources 
department rather than in contracting out to a private-sector 
consultant ``to augment our internal hiring capabilities.''
    The best recruiters are likely current CBP Officers. Unfortunately, 
morale continues to suffer because of staffing shortages and a 
threatened pay freeze, and the administration's proposed cuts to 
retirement, health care, and workers' compensation programs. In 
addition to being overworked due to excessive overtime requirements, 
temporary duty assignments are a major drag on employees, especially 
those with families. Based on their experiences, many officers are 
reluctant to encourage their family members or friends to seek 
employment with CBP. I have suggested to CBP leadership that they look 
at why this is the case.
    NTEU strongly believes that addressing OFO hiring shortages by 
funding needed new CBP Officer and Agriculture Specialist to fill the 
fiscal year 2018 staffing gap will do more to improve morale and 
encourage peer-to-peer recruitment than funding a private contractor to 
help recruit and hire new CBP employees.
                            recommendations
    To address the dire staffing situation at the Southwest land ports, 
as well as other OFO staffing shortages around the country, it is 
clearly in the Nation's economic and border security interest for at 
least $1.6 billion of the $33 billion funding proposal to be provided 
in up-front, no-year appropriations to fund an increase in the number 
of CBP Officers, CBP Agriculture Specialists, and other CBP employees 
as stipulated in CBP's various workload staffing models.
    In order to achieve ``Critical CBP Requirements to Improve Border 
Security'' that must include the long-term goal of securing the proper 
staffing at CBP to address workloads, NTEU recommends that Congress 
take the following actions:
  <bullet> Provide $1,632 billion in direct appropriations to fund the 
        hiring of 2,516 CBP Officer needed new hires;
  <bullet> Fund 721 CBP Agriculture Specialists needed new hires and 
        additional canine teams;
  <bullet> Restore recruitment and retention awards, and other 
        incentives; and
  <bullet> Restore cuts in mission support personnel that will free CBP 
        Officers from performing administrative duties such as payroll 
        processing, data entry, and human resources to increase the 
        numbers available for trade and travel security and 
        facilitation.
    Congress should also redirect the recently-enacted increase in 
customs user fees from offsetting transportation spending to its 
original purpose of providing funding for CBP Officer staffing and 
overtime, and oppose any legislation to divert additional fees 
collected to other uses or projects.
    The CBP OFO employees I represent are frustrated and their morale 
is low. These employees work hard and care deeply about their jobs and 
their country. These men and women are deserving of at least $1.6 
billion of the proposed $33 billion funding package to provide more 
staffing and resources to perform their border security jobs better and 
more efficiently. Further, these CBP employees, along with all other 
Federal workers, should not be forced to see their paychecks and 
promised benefits slashed.
    Thank you for the opportunity to deliver this testimony to the 
committee on their behalf.

    Ms. McSally. Thank you, Mr. Reardon.
    I ask unanimous consent that Ms. Jackson Lee have 
permission to sit and participate in this hearing. No 
objection.
    I now recognize myself for 5 minutes for questions. First, 
Mr. Reardon and just more of a statement, I think you know that 
we are partners with you on these issues that you are talking 
about at the ports of entry and first bill signed into law 
actually was fast-tracking our veterans for jobs at the ports 
of entry and we are working through the polygraph bill as well.
    But just to let you know, I know you probably didn't have 
access to the underlying documents for the $33 billion, but I 
have got it right in front of me. It does include resources for 
2,516 CBP Officers.
    That was the request from the White House in the $33 
billion. Now, our bill Secure America's Future Act has 5,000 
officers in there as well, so 5,000 Border Patrol and 5,000 CBP 
Officers at the ports of entry.
    So, those statements about what Congress is or isn't doing, 
we have been partnering with you. We know this is a critical 
issue both between the ports of entry and at the ports of 
entry. Our legislation continues to support addressing these 
issues for the CBP Officers there, that are doing work day in 
and day out under pretty I know difficult conditions, 
especially I am concerned in Arizona right now with shortage.
    Mr. Judd, thanks for your perspective in the testimony 
where you talked about how policies of the past that were sort 
of piecemeal did a bit of a, when you push on a balloon and it 
causes a reaction on the other end, right, where in San Diego 
and El Paso Sector they did certain things to address those 
issues there.
    But it basically pushed the illegal activity into my State. 
Then when we did put up some barriers and other things in the 
urban areas then it pushed illegal activity out into the rural 
areas where the ranchers and border residents are dealing--have 
been dealing now for many, many years with the transnational 
criminal organizations trafficking through their property and 
through their communities, creating a very real threat and a 
lot of damage and that all goes with the illegal activity.
    So this is as a result of the failed policies of the past 
as you brought up. But you were there in Arizona, can you 
elaborate a little bit more about how important it is that we 
don't just do this piecemeal thing or we push on one end or one 
sector. Because we are basically going to create a problem in 
another community.
    That is also a humanitarian issue. People are now 
trafficking through the hot desert in the summer and dying 
because of the way this has been done piecemeal in the past. So 
can you elaborate a little bit from your personal experience on 
how important that is?
    Mr. Judd. Absolutely. If you look at Naco, specifically my 
old stomping grounds where we had the infrastructure we were 
able to control those specific small corridors, but what 
happened was we let go the outreaches and the crossings there 
just shot up astronomically.
    I mean in Naco, Arizona, I want to say it was in 2003, we 
arrested 112,000 illegal aliens. The entire Border Patrol, that 
is one station out of more than 150 stations the entire Border 
Patrol. The entire Border Patrol last year had 400,000, Naco 
one station in 1 year had 112. So what happened was these 
ranches were just completely and totally overrun and these 
ranchers were overwhelmed.
    They could not maintain their livestock. They could not 
maintain their grazing fields due to the problems that they 
experienced. So we just can't have them. The one thing that I 
am concerned about is our organization over the last 20 years 
has been the most politicized organization that I know of, 
every single year we are talking about border security. Every 
single year, we are debating border security. We can secure the 
border and we can make this problem go away once and for all.
    Ms. McSally. Thank you, Mr. Judd. I do want to follow up 
given the $38 billion that we have in our legislation which 
should include again holistically the request of the 
administration plus port of entry issues.
    Do you think that is going to be enough to give the tools 
and the resources that are needed to our agents to be able to 
secure the border?
    Mr. Judd. I have seen the projections and I have seen what 
it is that we are looking for. I believe that it does. It 
compensates. It in fact goes far enough to project into the 
future which is something that we very rarely do.
    What was interesting is Congresswoman Barragan asked Acting 
Commissioner--Deputy Commissioner Vitello if he believes that 
the wall would be 99 percent effective. I can tell you that the 
U.S. Special Forces have tried out those barriers and they 
found that those barriers are impenetrable. I would say 
absolutely yes, those walls will be 99 percent effective.
    But we only need them in strategic locations. We are not 
talking about 2,000 miles of a continuous wall. We are talking 
strategic locations.
    Ms. McSally. Great. Thank you.
    I mean, we heard from, in our last hearing, testimony I 
think it was where you do have physical barriers or where you 
don't have physical barriers is maybe like one agent per mile. 
We are talking a lot of metrics in the last panel, right?
    But where you do have physical barriers, again, combined 
with situation awareness and tolls and sensors and agents, you 
could have more agents or less agents per mile. I think it was 
one agent per 3 miles.
    That is a pretty realistic or pretty significant increase 
in the ability for them to be able to patrol and cover an area, 
so can you just follow up on that, what that does for you if 
they are just a barrier that have to get over combined with, 
again, the situational awareness that you need and the tools 
and the other agents.
    Mr. Judd. Certainly, what it allows us to do is we have 
limited manpower. If we can stretch that manpower throughout 
the entire border we can become more effective. Right now in 
the McAllen Station--at the McAllen Station, we have 
approximately 1,000 individuals that are in a processing center 
as we speak, because we have so many individuals we have had to 
take agents off of the line to put them in that processing 
center, which then leaves holes, huge gaps in the border. When 
we have walls, we are able to spread our manpower out a lot 
more, which allows us to be a lot more effective.
    Ms. McSally. Great. Thank you. I am over my time.
    The Chair now recognizes Ms. Sheila Jackson Lee from Texas.
    Ms. Jackson Lee. Madam Chairwoman, thank you for your 
courtesies and to my colleague Mr. Vela, I thank him for his 
service. I thank the Chairman of the full committee, Mr. 
McCaul, and the Ranking Member.
    Well, I have been in Homeland Security hearings all day. I 
am pleased to say so because the work that you do, Mr. Judd, 
and the work that all of your members do, Mr. Reardon, are to 
be truly complemented and appreciated.
    I have been on this committee long enough to hopefully know 
my sincerity on the enthusiasm I have with all of you who have 
been on the front lines of protecting this Nation. So, thank 
you again.
    Let me take a moment, although, they are not from Texas to 
acknowledge of bridge collapse in Florida--Florida 
International University and there have been major loss of 
lives. I am saying that because some of your members or 
colleagues who will be on the front line dealing with that. I 
think it is appropriate in this committee to take note of that.
    Madam Chair, I also want to put on the record that I hope 
and I did not, forgive me, I get a chance to do so; I will 
speak to him directly. But I wanted to put on the record, I 
think it is important for this committee to have a full 
briefing on Russia.
    I will just put that on a classified briefing on Russia and 
I hope that we can do that. I know next week is maybe 
difficult, but I hope that we will be able to do that for the 
work that we do in this committee.
    Let me, again, Mr. Judd, very quickly in my time, I 
support--been on this Committee long enough. I joined Senator 
Kerry so many years ago. I think you might remember or you 
might have been a babe in arms when the Border Patrol Agents 
did not have laptops, night goggles, vehicles, et cetera.
    I think we put $400 million in a bill that ultimately 
passed to provide all of that equipment. So, know the work that 
you all do. I question a wall that we have no matrix, no 
established format to understand whether it will work or not.
    So let me just quickly ask you, on the Santa Ana Wildlife 
Refuge, there is already a Border Patrol presence, other law 
enforcement officers, and Federal personnel and tourists. Given 
the people and resource is already there, should building a 
wall in the refuge be a priority?
    Mr. Judd. In certain locations, we don't need a wall. 
Again, we need it in strategic locations. I can't specifically 
speak to Santa Ana until I see exactly that, but I do know that 
there are certain locations that we don't need a wall.
    Ms. Jackson Lee. That might likely be an area where you 
would not need a wall.
    Mr. Judd. It very well could be.
    Ms. Jackson Lee. Again, thank you for your service. Let me 
go to Mr. Reardon because you mentioned the 3,651 and I shared 
a note with the Chairwoman but I just think I want to clarify 
it. Your point that you are making is, there is no dedicated 
monies for these individuals, who I view--I happen to spend a 
lot of time at the border only because I am in Texas and I know 
Henry Cuellar and Mr. Vela, so we are there a lot.
    But I have known every border starting from California and 
I think some of your friends, who are sitting behind you, know 
that I have been to every border, every detention center that I 
could possibly be in, so let me just focus and say, is that the 
point you are making? There is no dedicated dollars in this 
budget. What you are looking at is fees. May I, in my question, 
so that you can take the time to answer your question.
    First of all, let me be very clear: $18 billion for a fence 
that was told to us by the administration that it was going to 
be paid for by the Mexican people and the Mexican government. 
We are documented by a report that was issued in September 2017 
by DHS that we have the lowest number of illegal crossings in 
40 years.
    But what you are speaking of that is very important is the 
need for Officers, CBP at these ports of entry where we have 
the shortest number which really impacts any thought of a legal 
crossing, you can't get in legitimately and it also stymies 
business. So would you comment on how you can do your business 
if you are dependent on fees? I also believe, if you would 
comment, $18 billion for a wall, I would like to do increase in 
compensation and retention.
    That means we keep individuals who are professionally--who 
desire to have this as their profession. Would you please 
comment on how fees without dedicated funds impacts negatively 
on your workers and how you don't have the workers that you 
really need, because it is fees and it is at this busy port? 
Let me also say that I am a co-sponsor of Mr. Vela's H.R. 4940. 
I want to make sure that you know that. Let me yield to you.
    Mr. Reardon. Thank you very much, Congresswoman, and thank 
you for being a co-sponsor of that. Appreciate that very much. 
Chairwoman McSally. I also want to make sure that you recognize 
that we at NTEU absolutely support the CBPO provision of hiring 
CBPOs, so that I hope understand as well.
    We are certainly also aware of the fact that the 2,600 CBPO 
number in the administration's proposal, we are aware of that, 
but my opening remarks--what I was referring and included is 
that there is no actual direct funding, no appropriations for 
those folks and this goes to the issue that Congresswoman 
Jackson Lee raised about the fees.
    The fact is that Congress has to approve those fees, and as 
I had suggested in my comments, right now, you know, at least 
to this point, there has not even been hearings about that. So 
what I am concerned about is that, you know, regardless of what 
Congress decides to do with regard to technology and border 
walls and all those things, we are going--we already are under 
siege at the ports of entry.
    The fact is that we don't have about 3,600 people that we 
need at the ports of entry and so as a result and you have 
heard me say this before, but I will add it again that, you 
know, we have people who routinely, day after day, are working 
16-hour days. That is not good for those individuals. It is not 
good for their families and it most certainly is not beneficial 
to our protecting the homeland.
    So I think, you know, from my perspective, if we are going 
to make a decision that border security and port security is 
important, and both are important, we have got to make sure 
that we have the necessary people to do the work in the ports 
of entry. So we have got to fix the hiring problem, we have got 
to fix the polygraph problem. We have got to make sure that we 
are getting people in the door, and yes, I agree, we have got 
to make certain that we are also retain those folks. So I will 
leave it at that.
    Ms. Jackson Lee. Well, my time is up, but let me just 
finish on this quick question. I thank the Chairwoman for her 
indulgence, I know I am flying out.
    Ms. McSally. I know, you get around.
    Ms. Jackson Lee. Yes, yes. Let me just say that you are at 
the ports of entry, dominant population coming through comes 
through at least legally or with some form of paperwork and 
obviously some do not. But the point is, is you need fresh 
agents that can do their job to protect this Nation. Do you 
think there should be focus on making sure they are a stable 
force and make sure that that happens as opposed to dollars 
that may have to be spent on a wall?
    Mr. Reardon. Well, I certainly think that regardless of 
where money is put and I will certainly leave that to Congress 
to figure out, but what I do know is that we are making, I 
believe, a grave mistake in this country if we do not think 
that an integral part, a very important part of protecting our 
Nation is ensuring that we have healthy and appropriate numbers 
of CBP Officers.
    But let me also just add. I mean I keep talking about, you 
know, the security of the country. But let's also remember that 
also part of the mission for these CBPOs is ensuring that 
appropriate trade and travel happens. There is a huge economic 
driver aspect of bringing these folks into the ports of entry 
as well.
    Now, I have not mentioned--I have been talking about CBPOs 
and 3,600 of them that we need, but we also have to remember 
that there are other aspects, other employees that are 
important to bring in, for example, agriculture specialists. 
CBP's work force staffing model calls for an additional 700-
plus of those folks.
    Now, these are the people that make sure that, you know, 
our crops don't get damaged when, you know, some bad kind of 
beetle comes in, for example, which has recently happened and 
has been caught by CBPOs, but also K-9 enforcement teams. There 
is a huge lack of K-9 enforcement teams in this country as 
well. So, I mean there are a lot of folks out there that I 
mean, we just don't have enough of them.
    Ms. Jackson Lee. Thank you.
    Ms. McSally. Great. Thanks. I do want to know before I go 
to Mr. Rutherford. The bill, the Secure America's Future Act 
has 300 new K-9 teams and 631 agricultural inspectors, so we 
are with you.
    Mr. Rutherford from Florida. recognized for 5 minutes.
    Mr. Rutherford. Thank you, Madame Chair. Thank you both for 
being here this afternoon. It was mentioned earlier that at one 
time, CBP didn't have laptops, they had a lot of equipment 
needs. So as you brought in laptops, as you brought in 
technology, the efficiency of your Officers has gone up. They 
are able to do more.
    One of the things that I think we need to keep in mind when 
we talk about an $18 billion wall along with the technology, 
along with the access which is, as you all know, is huge. As we 
do that, as we add the wall, as we add the technology as we add 
the access to those very remote areas, that will assist CBP in 
accomplishing the mission with fewer officers actually. Then 
they would be able to move those officers to other areas as 
well.
    So there are some good savings that could actually be built 
into a wall and utilizing technology properly. I mean every law 
enforcement agency in the country has used technology to 
enhance their performance. So I think you all will, not only 
will do the same thing, you have done the same thing. I would 
like to--Mr. Reardon, for just a moment, and you touched on it 
briefly about the economic impact of it, but this, you know, 
and in your comments there is the 328 land, sea, and air ports 
across the country.
    I am really worried about points of departure abroad. Those 
16 locations, I know as the Chairwoman and some of the other 
Members, we sat in some of these security briefings, hearing 
about some of the things that are--that are out there, I worry 
about those points of departure where it is coming our way and 
you guys are integral to making sure that that process is safe 
as well. Can you talk a little bit about your needs over there?
    Mr. Reardon. Well, certainly we have pre-clearance sites 
around the world and they are staffed by CBPOs and clearly the 
idea is to check folks there and to make certain that no bad 
actors are going to be coming into our country. To be able to 
stop them at locations----
    Mr. Rutherford. Right.
    Mr. Reardon. Overseas or in Canada, for example. The 
reality is that regardless of whether or not you have 
additional PreClearance sites and they are certainly on the 
drawing board, additional PreClearance sites that they are 
looking at opening and beginning to staff, you still need more 
people, and as you are taking more of those folks overseas 
somewhere, you are drawing, you know, unless you are really 
increasing the work force here.
    Mr. Rutherford. From the limited number here.
    Mr. Reardon. Exactly. You are drawing from the folks that 
we have here.
    Mr. Rutherford. Right.
    Mr. Reardon. So it only really exacerbates the problem 
candidly. I certainly think it is important to make sure that 
we have these PreClearance sites and that we appropriately 
staff them, but we can't do it without also taking care of what 
we do at the ports here.
    Mr. Rutherford. I believe as we continue to tighten up our 
land border, that more and more, particular our southern land 
border, more and more we are going to see our ports where we 
are bringing in, you know, I represent the Port of Jacksonville 
as you know. We are bringing in tens of thousands of containers 
every day, and I want to make sure that you have the resources 
that you need at that location because I really these ports as 
kind of the Trojan Horse dealing with our security.
    We are bringing that stuff in just like they brought in, 
you know, the people of Troy brought that horse right into 
their own city. We know the rest of the story. I want to make 
sure that that is not happening in the Port of Jacksonville and 
other ports around the country. So the numbers are incredibly 
important I think, but so is the technology and I want to make 
sure that we have--because some of the things that I am hearing 
is our technology is not keeping pace at some of these seaports 
of entry as well. Is that your concern as well?
    Mr. Reardon. Well, I will tell you that I am certainly an 
advocate of our using technology, and in some of the locations 
where we receive a lot of mail, for example, they are using 
technology to a really excellent degree to check on some of the 
drugs that are being sent in and it is really helping our 
officers. Unfortunately, for example, in Memphis, Tennessee, we 
don't have enough of the officers to actually fully utilize all 
of the equipment that is there.
    So that is important. But I also want to one other point. 
As we do all of these things, whether, like I said, whether it 
is a wall, whether it is certain other types of technology to 
strengthen the borders, guess what is going to happen? It is 
going force the bad actors to try to get through the ports.
    Mr. Rutherford. Elsewhere, right?
    Mr. Reardon. Right. So I think I heard somebody earlier 
said, we have to have kind of a holistic approach. My fear is, 
my concern is that we are going to pay a lot of attention to 
the borders, and I am not suggesting that we shouldn't, what I 
am suggesting though is that we have to do much, much better 
than we are currently doing in our ports of entry.
    Mr. Rutherford. Thank you. That is my concern as well. I 
see my time is up. Thank you. I yield back.
    Ms. McSally. Thank you, Mr. Rutherford. I am going to do a 
second round here if you feel like sticking around but if not, 
just--a lot of things to talk about here and I appreciate the 
witnesses. A lot of the discussion today on both panels about 
manning issues and retention issues in particular. I think it 
is just so crucial. We invest now speedy 10 months into hiring 
somebody, used to be a lot longer than that.
    We invest in the training. We provide and they gain 
tremendous experience at the ports, in between the ports, out 
there, you know, doing the hard work every single day. But 
because of many of the conditions that have been described and 
the lack of manning, lack of resources, and the lack of 
incentive pay and the remote locations, and all that. Because 
of all that, we are losing people. We are losing people faster 
than we are replacing them. This is a significant focus of mine 
that I am really concerned about.
    How long does it take to replace a 10-year agent? Right? It 
takes 10 years and it takes a whole lot of money and resources. 
So as we obviously need a pipeline coming in, we have got to 
make sure that we stop the bleeding and we have heard some of 
your perspectives and ideas on that.
    But our bill, again, includes the appropriate authorities 
and resources as a part of this trust fund so that we can 
provide some incentives to those that are in remote areas, 
difficult for them to move there but then maybe they get a good 
follow-on assignments, those types of things like in the 
military. What else is it going to take, Mr. Judd, for us to 
retain these amazing men and women in the green suit? Then Mr. 
Reardon, those blue-suiters out there. What else can we do?
    Mr. Judd. Well, one of the things that I have noticed is it 
is always respectable when you are working with legislators 
that have actually been there and done it. You have gone to the 
border, you have actually patrolled the border without the pomp 
and ceremony. You didn't notify the agency. You have actually 
gone to the ports of entry without the pomp and ceremony. You 
have seen the things that we face. You have seen the gaps that 
there are in border security.
    There are a lot of things that we have to look at that we 
can do, but one of the things that we have to consider is we 
have to consider the pay parities within the different 
agencies. Border Patrol Agents are just like anybody else, they 
want to earn more money for standard of living. If they can 
earn more money somewhere else, they are going to go to those 
locations. I sat down with Acting Commissioner McAleenan in 
January 2017. He asked me to come sit down with him to talk 
about some of the things that we could do to retain our 
employees.
    January 2017, I presented a great many ideas, most of which 
he agreed with and liked, yet we are more than a year later and 
we haven't implemented even one of those ideas. So we have to 
look at that and we have to say, I can't put all the pressure 
on you. We know that legislation takes a long time. There are 
things that we can do administratively, and that is where we 
are looking to you for oversight. If we can get some oversight, 
we can get these programs implemented administratively so that 
we can our people.
    Ms. McSally. Great. Can you give us a list of those things 
that you asked them for and----
    Mr. Judd. I will be happy to do that.
    Ms. McSally. We can start to ask them how those things are 
moving through the administrative processes, we will refer to 
that.
    Mr. Judd. I will do that.
    Ms. McSally. Mr. Reardon.
    Mr. Reardon. Thank you. First off, I would thank you for 
all the work that you have done on the retention issues such as 
incentives. I think something else that can be done is look at 
student loan repayments. That, I believe, would probably be 
pretty good. And the final thing that I would offer is when we 
are looking at trying to staff and also retain these 
organizations, and really this holds true across agencies, the 
notion that we would have a pay freeze when the private sector 
is looking at 3 percent increases, it is pretty hard I think to 
encourage somebody to not only come to work here but to stay 
when they have to always worry about whether or not they are 
going to get a pay increase even a cost of living increase. So 
that is the final thing I would offer.
    Ms. McSally. OK. Great. I do have some more questions but I 
am going to give it to the gentleman from Florida, if you would 
like another round and then I will circle back again one more 
time.
    Mr. Rutherford. Thank you, Madame Chair. Along those lines, 
Mr. Reardon, my agency, many years ago, we implemented a pay 
scale based on seniority and you automatically moved through 
that. So it was kind-of a built-in way to keep salaries 
competitive. So, Mr. Judd, I would love to see copy of that 
list as well so that we can help move some of these things 
forward because I think it is not just pay, it is benefits and 
other issues that I think we all need to be looking at, because 
these men and women are asked to really do some tough things, 
and we need to recognize that. I yield back the time.
    Ms. McSally. Thank you. Gentleman yields back. OK, final 
round. We have a lot of time today talking about physical 
barriers and the border wall and the border wall system. Look, 
I come from serving in the military and I want to look what is 
effective and how we can actually get the mission done. I will 
tell you, I have been in this political sphere for a few years. 
Sometimes it blows my mind how things get taken out of 
proportion and turned into something political.
    I mean you look at the Secure Fence Act, which was voted on 
by then-Senator Obama, then-Senator Clinton, then-Senator 
Schumer, all realizing the value of putting physical barriers 
at 700 miles on our Southern Border in order to stop and slow 
down the illegal activity and the cartel activity that is 
coming into our country. At the time, that seemed fine. Even 
President Obama. I mean I was down in Naco over the summer, 
seeing where some replacement barriers are being put in and 
because of the environment that we are in, people are like, 
``Oh no, that is President Trump's wall.'' My answer was, ``No, 
that is Obama's wall.''
    Right? Because that was approved by President Obama and I 
have a little list here, in Nogales 2.8 miles, in Douglas 9.5 
miles, in Naco 7 miles. This is all signed and approved funding 
by President Barack Obama. San Luis 1.8 miles, Anapra 1.3 
miles. Physical barriers have not been contentious in the past. 
But now because we have a President who understands that we 
can't just piecemeal it, like you said, Mr. Judd. We can't just 
piecemeal it because they will go around it and then move to 
other communities, but we need a holistic approach that 
includes a border wall system that previously was not 
contentious, but because of the environment that we are in and 
there is this massive resistance to literally everything he 
does, everybody's against that, too.
    They are against the things that they were previously for. 
I don't get. For communities like mine, some of what the Secure 
Fence Act included was Normandy barriers, which are very short, 
a couple feet high, intended for vehicles but you can walk 
right over them. The drug mules can walk right over them. As 
you know, they put ramps up and they will drive right over 
them, those need to be replaced by something that is a little 
bit more like what has been tested in some of these prototypes 
in San Diego.
    This should be a no-brainer. So I just want to, again, hear 
from you Mr. Judd, like let's just get out of the politics and 
into the reality of what our agents need and what a, actually 
workable border wall system will do for them and why it is so 
important to stop playing politics with this issue so that we 
can actually keep our communities safe.
    Mr. Judd. We have already proven what they do. I put on a 
uniform almost every day, I go out to the actual border, I 
patrol the border almost every day. What I can tell you is that 
in the locations that you are talking about, in Douglas, in 
Naco, we saw what it was like when we did not have any physical 
barriers and we saw immediately the drop in the number of 
illegal crossings that happened.
    Again, 2003, 112,000 apprehensions. Last year in Naco, I 
think that the apprehensions were somewhere around 20,000. So 
from 112- to 20,000 and that is largely due to the technology 
that invested which includes barriers. There is a lot of things 
that we can do that actually don't cost money. Congressman 
Rutherford, the things that I suggested to Acting Commissioner 
McAleenan don't cost a dime. There is a lot of things that we 
can do when--don't mean to take your time, but when--after my 
sophomore year of college I worked in Phoenix doing concrete, 
for Tempcon concrete. I can tell you that I was only getting 
paid $7.50 an hour but when I left the work site, I was able to 
look back and see what I accomplished and it felt good. Our 
agents want to feel good about what they do. They want to feel 
good about their job, and when they feel like they are doing 
something that means something, they are going to stick with 
that job as well. So just one thing to think about.
    Ms. McSally. Thank you. Have they been asking line agents' 
input in the prototype process here for the system?
    Mr. Judd. We have been able to add some input, yes.
    Ms. McSally. Oh, that is great. So have you heard what the 
time line is for any of that feedback to be given back to all 
of you and all of us?
    Mr. Judd. No, but one of the things that President Trump 
said in California that I appreciated was that--he said that we 
need to be able to see through those fencing to see the threats 
that are coming up, otherwise you don't know what is taking 
place on the other side of the wall. That is something that we 
have been advocating for forever and President listened. He is 
actually listening to the experts that are on the border every 
day and he is implementing those, what we are recommending to 
him and it is allowing us to be a lot more effective on the 
border.
    Ms. McSally. Great. Thank you. Last question, Mr. Judd, in 
my opening statement, I talked about these loopholes, these 
policy loopholes and many people may not understand what I am 
talking about, but even if we were to perfectly secure our 
border with everything that you all need in order to make that 
happen, because of these policy loopholes, we have individuals 
that are seeking out the Border Patrol.
    They are looking for them. They are not evading them. In 
order to find you and to turn themselves into you. The cartels 
have trained them to say exactly what they need to say in order 
to then be released into the interior of the United States with 
a hearing for a likely false asylum claim, for example, years 
in the future because of the backlog, never to be seen again.
    So like as we speak this is happening every single day. So 
even if we were to do all this on border security, it is so 
important for us to appropriately close these loopholes while 
we still ensure that those with legitimate asylum claims get 
their day in court which are being lost in the shuffle of all 
these false ones plus the unaccompanied minor policy that is 
bogging down the system. So can you just share and make sure 
that--I want to make sure that America can hear from you as to 
what these loopholes are doing and why they need to be closed.
    Mr. Judd. We call it the catch-and-release policy. What 
happens is individuals will cross the border knowing that all 
they have to do is come up to me and say, ``Here I am, arrest 
me.'' I take them back to the processing centers to process 
them and they say, ``Well, I am scared to go back to my 
country.'' We then transfer them to ICRO and ICRO releases 
them. What that does is that is a magnet that draws people to 
cross our borders illegally.
    Now, what is interesting about that is they could actually 
do this legally. They could actually go to the ports of entry 
and claim asylum and that is legal, but they are crossing 
border illegally. Now, they are doing that because the 
smugglers know that if they overwhelm us with what we call 
these give-ups, if they overwhelm us with these give-ups, it 
takes our resources out of the field creating holes in the 
border, which then allows them to cross the more dangerous 
things that come across our border, and it completely and 
totally bogs down the system and floods the system.
    So this catch-and-release program, this policy that allows 
us to release people into the United States which they then go 
and disappear into the shadows, it completely and totally 
destroys any semblance of border security and it has to stop.
    Ms. McSally. Mr. Reardon, the same thing is happening at 
the ports of entry. They are turning themselves in, right? So 
these agents who are supposed to be working on the flow of 
legitimate commerce and really looking for the bad stuff coming 
through are now being bogged down by basically people taking 
advantage of the system. Have you heard feedback from your 
members on this?
    Mr. Reardon. I have heard some feedback on it. Not, I am 
sure, as much as Mr. Judd experiences it, but I have heard 
something to that effect.
    Ms. McSally. Great. I appreciate it. Well, I appreciate 
everybody's time. Do you have any more questions? OK. Thanks 
for your patience. I am supposed to say something at the end 
here about the hearing. The thing for the 10 days, so hang on 
here. All right. Right there. No, there it is. All right. I 
want to thank the witnesses, of course, for your valuable 
testimony. Members of the committee may have some additional 
questions for you and will ask you to respond to these in 
writing. Pursuant to the committee rule VII(D) the hearing 
record will be held open for 10 days. Without objection, the 
committee stands adjourned.
    [Whereupon, at 5:17 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Honorable Lou Barletta for Ronald D. Vitiello
    Question 1a. CBP is requesting $33.25 billion in funding. 
Approximately $18 billion of this funding will be allocated for 722 
miles of border wall, 316 of which is new. How much of that money will 
be used to complete enforcement measures mandated by the Secure Fence 
Act of 2006?
    Answer. Section 3 of the Secure Fence Act of 2006 set forth 
specific requirements and geographic locations for the construction of 
border barriers. However, in December 2007, Congress repealed Section 3 
of the Secure Fence Act, and replaced it with the more flexible 
language that is found in Section 102(b) of the Illegal Immigration 
Reform and Immigrant Responsibility Act (IIRIRA) of 1996, as amended. 
As such, the Secure Fence Act no longer mandates particular locations 
for the construction of border barriers. With that said, U.S. Customs 
and Border Protection (CBP) has constructed 654 miles of primary border 
barriers to date and is executing the border wall construction 
requirements outlined in the fiscal year 2017 enacted budget and 2018 
Omnibus Appropriations. Prioritization of border barrier construction 
is based on operational requirements, and is outlined in the January 
2018 Border Security Improvement Plan report to Congress.
    Question 1b. Can you detail the deficiencies of our current border 
infrastructure, and why replacing, expanding, and enhancing it is vital 
to our National security?
    Answer. The land along the approximate 2,000 miles of border 
between the United States and Mexico is extremely diverse, consisting 
of desert landscape, mountainous terrain, and urban areas. Because of 
the diversity of the border environment, there can be no one-size-fits-
all impedance and denial solution. Impedance and Denial (I&D) is 
created through the use of man-made barriers, such as fences and walls. 
When deployed in conjunction with other investments, U.S. Border Patrol 
has been successful in dissuading illicit border activity by conveying 
a higher probability of a successful law enforcement resolution.
    Since the construction of barriers, USBP has made significant 
operational gains in border security. Illicit drug and human smuggling 
activity have decreased in those areas where barriers are deployed, 
however illicit cross-border traffic has also shifted to areas with 
limited or no border barrier. This reduction and shift in traffic 
demonstrates the effectiveness of deploying physical barriers along the 
border as well as the need for more impedance and denial 
infrastructure.
    Although we have achieved significant operational gains, segments 
of our existing barrier were constructed with legacy materials such as 
repurposed landing mat or expanded metal that are continually breached 
and/or scaled and/or dug under, diminishing its effectiveness. These 
inferior materials no longer meet USBP's operational requirements and 
need to be replaced. This recapitalization on our border infrastructure 
investments will allow us to maintain the operational gains achieved. 
Additionally, in some areas where vehicle barrier was deployed, 
changing border conditions now require barrier that impedes and denies 
pedestrians. As a result, CBP's future focus is on both the need to 
replace some of its existing barrier and the need to construct new 
barriers.
    We have different types of barriers in our toolkit, to include 
steel bollard and levee wall, along nearly one-third, or 654 miles, of 
the Southern Border. The physical barriers are the backbone of an 
integrated Border Wall System that will include all-weather roads and 
lighting, as well as enforcement cameras and sensors and detection 
technology as well as adequately staffed agents to support that 
infrastructure. Future Border Wall Systems, while rooted in impedance 
and denial, will integrate additional capabilities such as domain 
awareness and access and mobility to increase certainty of arrest, 
agent safety, and overall public safety.
    While the focus is on border wall infrastructure, it is appropriate 
for us to point out that there remain significant challenges with the 
infrastructure at the Ports of Entry, most of which were designed and 
built prior to the creation of the Department of Homeland Security and 
the merging of multiple border enforcement agencies within CBP. The 
General Services Administration in partnership with CBP would take this 
opportunity to remind members of the GSA Capital construction 
submissions within the fiscal year President's Budget Request that are 
directly related to border security and updating the land ports of 
entry.
    Question 2a. Can you speak to if and how this money will lead to 
the completion of a Biometric Entry-Exit system at Ports of Entry and 
why it has taken so long to complete?
    Answer. U.S. Customs and Border Protection (CBP) is working toward 
full implementation of a biometric exit system in the air environment 
within the next 4 years to account for over 97 percent of departing 
commercial air travelers from the United States. Stakeholder 
partnership is critical to accomplish this. Airports, airlines, and CBP 
must co-create a process that meets airlines' business needs and the 
biometric entry-exit mandate. Partnership will be critical to achieve 
affordability and ensure that biometric exit does not have a 
detrimental economic impact on the air travel industry. The alternative 
is a Government-only solution that will add cumbersome layers upon 
existing travel processes, which will undoubtedly have an adverse 
impact on the air travel industry as current processes and 
infrastructure will not be able to sustain air travel given the 
projected increases in passenger numbers. This may require travelers to 
spend additional time going through security or boarding processes as 
well as the purchase of additional infrastructure to manage the 
expected increase in air travel.
    Since receiving the mission in 2013, CBP advanced an entry/exit 
strategy by conducting a series of pilot programs and technical 
demonstrations, which resulted in CBP developing a realistic and 
achievable biometric exit plan. CBP has:
  <bullet> Deployed demonstrations to 8 airports across the Nation;
  <bullet> Facilitated pilot programs with 3 airlines and 1 airport to 
        integrate biometrics with the airline boarding process:
  <bullet> Facilitated a pilot program with 1 cruise line for biometric 
        disembarkation:
  <bullet> Launched a pilot with the Transportation Security 
        Administration at a security checkpoint:
  <bullet> Enabled mobile devices to collect biometrics: and
  <bullet> Solidified plans to deploy in the land border vehicle and 
        pedestrian environments.
    These tests have assisted in defining the technical architecture 
for the end-state solution.
    Following the enactment of the Fiscal Year 2016 Consolidated 
Appropriations Act, which authorizes funding for a biometric exit 
program of up to $1 billion to be collected through fee surcharges over 
a period of up to 10 years, CBP has invested heavily in the back-end 
infrastructure and services to support stakeholder implementation. CBP 
now has the back-end infrastructure and services in place to support 
biometric exit stakeholder implementation and integration of front-end 
biometric cameras at all air and sea ports of entry. Currently, CBP is 
working to fully deploy air biometric exit and will spend 2018 working 
with stakeholders to get commitment to deploy biometric exit 
technology.
    CBP is leveraging advances in technology from the biometric exit 
solution to transform the entry process by using facial photographs to 
identify travelers. This new innovative approach identifies travelers 
by shifting the key to unlocking a traveler's record from biographic 
identifiers to biometric ones, primarily a traveler's face, to realize 
facilitative benefits, while still leveraging the law enforcement 
benefit of fingerprints without collecting new information. CBP's 
Traveler Verification System (TVS) uses biographic data from the 
passenger manifest and previously collected photos contained in 
Government databases to perform facial matching on-site to verify a 
traveler's identity. CBP is piloting this concept at three airports and 
demonstrating that using facial biometrics facilitates frictionless 
travel by reducing inspection time and creating an improved customer 
experience for the traveling public.
    Question 2b. What other technology do CBP Officers need to protect 
our Ports of Entry?
    Answer. CBP appreciates the funds appropriated and will continue to 
invest, as funds permit, in technologies and initiatives designed to 
provide improved processing and security on the border while ensuring 
the best value in return for the funds expended. Following are examples 
of activities/initiatives that have demonstrated proven benefits. CBP 
will continue to pursue these investments as appropriate.
  <bullet> CBP has begun deploying towable trailers to Field Offices 
        that can serve as Mobile Command Centers and Mobile Processing 
        Centers. These trailers will provide capabilities for surge 
        operations and support missions.
  <bullet> The CBP Mobile Program provides real-time enterprise 
        solutions designed to enhance the mission by enabling 
        operational components to incorporate the advancements in 
        mobile technologies (e.g., ruggedized tablets, smart phones, 
        and fingerprint capture peripherals) to support front-line 
        operations in the full range of processing environments (air, 
        land, marine) including processing of travelers, conveyances, 
        and cargo.
  <bullet> CBP utilizes license plate readers that deployed beginning 
        in fiscal year to process vehicle traffic. This technology is 
        dated and needs to be refreshed with up-to-date equipment.
  <bullet> CBP leverages technology and supporting infrastructure to 
        protect our Ports of Entry in various ways. The following 
        improvement projects (proposed and active) enhance operational 
        efficiency while promoting officer safety at ports of entry: 
        Biometric facial recognition in vehicles at speed, port 
        surveillance and remote monitoring, deployment of small/mid-
        size port wireless capability, port hardening, primary booth 
        redesign, and remote inspections.
    CBP Officers and Agents utilize a variety of large-scale, small-
scale, and handheld Non-Intrusive Inspection (NII) systems and 
Radiation Detection Equipment to scan conveyances for illicit 
contraband and materials (e.g., narcotics, contraband, currency, and 
radiological and nuclear materials out of regulatory control). 
Additional investments in NII, to include the $224.64 million 
acquisition funding enacted in the fiscal year 2018 Omnibus and the 
$44.24 million acquisition funding contained in the fiscal year 2019 
President's budget request, will address a significant portion of the 
following areas:
  <bullet> Opioid Interdiction with Technology.--Technologies to 
        identify and detect opioids across express courier consignment 
        facilities, international mail facilities, and other high-
        priority ports of entry (POE);
  <bullet> Examine a greater portion of conveyances.--Expand drive 
        through NII operations to examine more inbound and outbound 
        conveyances, without impact to primary operations, where 
        feasible;
  <bullet> Integrate technology and operations to remain agile when 
        responding to trade based threats.--Technologies that allow for 
        the integration with other law enforcement systems to provide 
        efficiencies across operations and allow officers to be re-
        directed to address other enforcement operations as feasible; 
        and
  <bullet> Continue to recapitalize aging technologies.--Allow CBP to 
        accelerate its cargo and conveyance recapitalization needs; 
        including cable seals, RFIDs, and NII.
    CBP's end-state [for NII] is to ensure each POE and checkpoint is 
outfitted with the appropriate NII equipment to ensure maximum 
efficiency in detecting and interdicting illicit narcotics and other 
contraband, while eliminating cash collections and increasing U.S. 
Immigration and Customs Enforcement's and the Drug Enforcement Agency's 
controlled seizures.
    CBP also needs to make improvements to our International Mail 
Facilities operations to keep up with the growth of e-Commerce. The 
volume of international mail has grown over 300 percent since fiscal 
year when CBP processed approximately 150 million shipments, to 501 
million shipments processed in fiscal year 2017.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
